 C:\Documents and Settings\raftovichr\My Documents\Audit Files\468 OCIE Process\468
 OCIE Exam Process.doc




Review and Analysis of OCIE
Examinations of Bernard L. Madoff
Investment Securities, LLC




                                                                  September 29, 2009
                                                                      Report No. 468
Review and Analysis of OCIE Examinations
of Bernard L. Madoff Investment Securities,
LLC

                              Executive Summary
Background. On June 25, 2009, the Securities and Exchange Commission’s
(“SEC” or “Commission”) Office of Inspector General (“OIG”) retained the
services of a team of experts at FTI Consulting, Inc. (“FTI Engagement Team”) to
assess the adequacy of examinations conducted by the SEC’s Office of
Compliance Inspections and Examinations (“OCIE”) in response to complaints
regarding the activities of Bernard L. Madoff (“Madoff”) and his investment firm,
Bernard L. Madoff Investment Securities, LLC (“BMIS”).

Objectives. The FTI Engagement Team reviewed the OIG’s Report of
Investigation dated August 31, 2009, including related findings, exhibits, witness
testimony and supporting documentation, and analyzed the workpapers from
OCIE’s examinations of Madoff, OCIE’s manuals, OCIE’s guidance documents
and policies, and other governmental and private reports relating to examination
programs. In addition, the FTI Engagement Team interviewed over a dozen key
OCIE managers and staff to gain an understanding of the OCIE examination
process.

Results. The FTI Engagement Team found that OCIE examiners made critical
mistakes in nearly every aspect of their examinations of Madoff and BMIS and
missed significant opportunities to uncover Madoff’s Ponzi scheme. The FTI
Engagement Team concluded that OCIE examiners did not properly plan or
conduct their examinations of Madoff, and because of these failures, were unable
to discover Madoff’s fraud.

The following is a summary of many of the specific findings in this report. The
FTI Engagement Team found that OCIE did not properly evaluate the information
provided in 2001 news articles that raised significant red flags about Madoff’s
operations. The FTI Engagement Team explained that information received
relating to a potential violation must be properly vetted and opined that in the
case of the 2001 articles about Madoff, there was sufficient detail in these articles
to warrant additional scrutiny due to the red flags raised.

The FTI Engagement Team further found that OCIE did not properly evaluate a
complaint in 2003 and a referral in 2004 from highly credible sources that
provided specific and concrete information about the possibility of Madoff not
engaging in trading. The review found that given the credibility of the information
triggering the examinations, the significant delays before the examinations

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                                  ii
commenced were unreasonably long, there was insufficient review of the
complaints, and the cause examinations failed to address critical issues raised in
the complaints. The review found that, at the time, OCIE had no formal policies
or procedures for handling tips and complaints in place which led to their
mishandling of the information.

The FTI Engagement Team also found that the planning memoranda for the
OCIE examinations were either inadequate or not drafted at all. The review
found that there were no formal policies or procedures at that time that required
the preparation of a planning memorandum. The FTI Engagement Team
concluded that had the scope of the examinations been adequately analyzed and
related to the complaints, the cause examinations would have more closely
focused on the possibility of a Ponzi scheme being conducted by Madoff.

The FTI Engagement Team further found that there was inadequate
communication and information sharing among OCIE personnel in connection
with their examinations of Madoff. In addition, the pre-examination preparation
was inadequate, the examination tracking system was not properly used to log
the initiation of the cause examinations, and the examiners did not adequately
close the examinations. The review found that while OCIE senior personnel had
an initial conversation with Madoff concerning the cause examination, there were
no policies or procedures in place requiring them to document substantive
interviews, and as a result, no clear, contemporaneous record of this and other
critical discussions was made. The review also found that OICIE did not have
formal policies and procedures requiring the preparation of closing memoranda
for examinations.

The FTI Engagement Team found that OCIE did not form appropriate
examination teams to conduct the examinations. The review found that one of
the examinations lacked a Branch Chief and both teams lacked staff with the
expertise necessary to effectively identify signs of fraud. The FTI Engagement
Team concluded that the failure to form appropriate examination teams with
sufficient expertise must be remedied in order for OCIE to uncover fraud in future
cause examinations.

The FTI Engagement Team found that OCIE failed to contact Madoff’s clients to
corroborate his representations in the examinations even though several of these
clients were SEC-registered investment funds who were subject to SEC books
and records requirements. The review found that SEC examiners failed to
follow-up on numerous contradictions discovered during the examinations and
many discrepancies were left unresolved.

The FTI Engagement Team found that OCIE failed to understand how BMIS
executed, cleared and settled his purported trades, and these failures contributed
to their inability to uncover Madoff’s Ponzi scheme. The review found that SEC
examiners did not acquire and analyze trading data from an independent source

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                                  iii
to verify the trading volume Madoff represented in client account statements, and
had such an analysis been conducted, they would have likely discovered
Madoff’s fictitious trades. The FTI Engagement Team replicated several aspects
of the cause examinations of Madoff, and demonstrated how obtaining the
pertinent information would have uncovered the fraud.

The FTI Engagement Team also found that the examinations were improperly
closed without resolving numerous issues, that one examination team actually
believed they might be subjected to legal liability if they contacted Madoff’s
feeder funds, and that the Madoff examination teams failed entirely to investigate
the allegations in two complaints about the lack of independence of Madoff’s
auditor.

Summary of Recommendations. This report presents 37 specific and concrete
recommendations designed to improve nearly every aspect of OCIE’s operations.
Many of these recommendations are summarized as follows: The FTI
Engagement Team recommends that examiners be provided access to industry
publications and databases, and protocols be established for analyzing
information from these outside sources. The report recommends that OCIE
establish a specific protocol that explains how to identify red flags and potential
violations of securities laws based on the information gleaned from these
sources.

The report further recommends the implementation of a collection system for
capturing information in tips and complaints, a requirement that OCIE annually
review and test the effectiveness of the new system, and that procedures be put
in place to ensure that all OCIE-related tips and complaints are vetted within 30
days of receipt and examinations commence within 60 days of receipt.

The report prescribes specific procedures regarding scope and planning
memoranda for cause examinations, including a requirement of concurring
review by an unaffiliated senior-level official. The FTI Engagement Team also
recommends that OCIE examiners be required to document all substantive
interviews, prepare detailed workpapers, and log all examinations into a tracking
system. There are also a number of concrete recommendations regarding the
selection of the examination team.

The report recommends the development of a formal plan to ensure that within a
three-year period, 50% of OCIE staff become qualified by means of an industry
certification to conduct thorough and comprehensive examinations. The report
also recommends the development of interactive exercises prior to hiring new
OCIE examiners to evaluate the relevant skills necessary to perform
examinations. Moreover, the report makes recommendations for training of
OCIE examiners in the mechanics of securities settlements, and in regulations of
foreign and domestic exchanges.


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                                  iv
The report also recommends that it be mandatory for the OCIE staff to verify a
sample of transactions with an independent third party and that the staff be given
direct access to databases maintained by self-regulatory organizations (“SROs”)
to allow them to perform verifications of registrant information.

The report further recommends requirements for all cause examinations to be
tracked consistently and appropriately and for examinations to be concluded with
a closing report. Finally, the report recommends that OCIE management make
clear that it will support OCIE examiners in their pursuit of evidence in the course
of an examination.

We believe that implementation of all 37 recommendations contained in this
report will significantly improve OCIE’s operations and its ability to uncover fraud
in the future.

A detailed list of our recommendations can be found in Appendix IV.

OCIE concurred with all 37 of the report’s recommendations. Management’s
responses to the report are included in its entirety in Appendix IV. The OIG’s
response to Management’s comments is included in Appendix V.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                                  v
TABLE OF CONTENTS
Executive Summary ...................................................................................................... ii

Table of Contents ........................................................................................................ vi

Background .................................................................................................................. 1

Objectives .....................................................................................................................2

Findings and Recommendations................................................................................... 3

          Finding1: OCIE Did Not Properly Evaluate in a Timely Manner Red Flags
             Provided in News Articles From 2001 That Raised Red Flags About
             Madoff...........................................................................................................3
                        Recommendations 1..................................................................... 4
                        Recommendations 2..................................................................... 4
                        Recommendations 3..................................................................... 5

          Finding 2: OCIE Did Not Properly Evaluate a Credible Complaint From an
             Industry Source During 2003 That Raised Red Flags About Madoff ............ 5

          Finding 3: NERO Did Not Properly Evaluate a Credible Complaint From
             An Industry Source During 2005 That Raised Red Flags About Madoff ....... 6
                       Recommendation 4....................................................................... 8
                       Recommendation 5....................................................................... 9
                       Recommendation 6....................................................................... 9
                       Recommendation 7....................................................................... 9
                       Recommendation 8....................................................................... 9

          Finding 4: NERO Did Not Prepare a Planning Memorandum For the 2005
             NERO Cause Examination of Madoff ......................................................... 10

          Finding 5: The OCIE Planning Memorandum Was Inadequate in its
             Scope and Execution .................................................................................. 10
                       Recommendation 9..................................................................... 12
                       Recommendation 10................................................................... 12
                       Recommendation 11................................................................... 13
                       Recommendation 12................................................................... 13
                       Recommendation 13................................................................... 13

          Finding 6: The Communication and Information Sharing Among OCIE
             Personnel Were Inadequate ....................................................................... 13
                       Recommendation 14................................................................... 15
                       Recommendation 15................................................................... 15

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC                     September 29, 2009
Report No. 468
                                                           vi
                          Recommendation 16................................................................... 15
                          Recommendation 17................................................................... 16

        Finding 7: OCIE and NERO Did Not Form Appropriate Examination
           Teams Necessary to Conduct the Examinations ........................................ 16
                    Recommendation 18................................................................... 18
                    Recommendation 19................................................................... 18
                    Recommendation 20................................................................... 18
                    Recommendation 21................................................................... 18
                    Recommendation 22................................................................... 19

        Finding 8: The Examiners Did Not Contact Madoff’s Clients to Determine
           Whether He Provided Investment Advice ................................................... 19
                     Recommendation 23................................................................... 20

        Finding 9: The NERO Examiners Did Not Follow-Up on Numerous
           Contradictions Discovered During the 2005 NERO Cause Examination .... 21
                     Recommendation 24................................................................... 22

        Finding 10: The Examiners Did Not Understand How BMIS Executed,
           Cleared and Settled Trades ........................................................................ 22
                     Recommendation 25................................................................... 23
                     Recommendation 26................................................................... 23
                     Recommendation 27................................................................... 24

        Finding 11: Neither the OCIE Nor the NERO Examination Team
           Attempted to Acquire Trading Data from FINRA/NASD, DTC/NSCC or
           Other Independent Third Parties in Order to Verify the Trading Volume
           Purported by Madoff on Feeder Funds’ Account Statements ..................... 24

        Finding 12: Had the OCIE or the NERO Examination Team Conducted a
           Trading Volume Analysis Based on Third Parties’ Data, They Would
           Have Uncovered a Significant Red Flag That, With Further Inquiry,
           Would Likely Have Led to Discovery of the Ponzi Scheme or, At the
           Very Least, Madoff’s Fictitious Trades ........................................................ 25
                     Recommendation 28................................................................... 31
                     Recommendation 29................................................................... 31
                     Recommendation 30................................................................... 32

        Finding 13: OCIE Did Not Adequately Track the Progress of its Cause
           Examination of BMIS .................................................................................. 32
                     Recommendation 31................................................................... 33
                     Recommendation 32................................................................... 33




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC           September 29, 2009
Report No. 468
                                                    vii
        Finding 14: OCIE Did Not Prepare a Closing Report That Resolved the
           Allegations from the Hedge Fund Manager’s Complaint and Identified
           Any Substantive Open Issues Discovered During the Examination............ 33
                     Recommendation 33................................................................... 34

        Finding 15: The NERO Examination Team Closed the Examination
           Despite A Number of Open Issues ............................................................. 35
                     Recommendation 34................................................................... 36

        Finding 16: The NERO Examination Team Believed They Might Be
           Subjected To Legal Liability If They Contacted The Feeder Funds ............ 36
                     Recommendation 35................................................................... 36
                     Recommendation 36................................................................... 37

        Finding 17: The Examinations Did Not Adequately Look Into the
           Allegations of the Auditor’s Lack of Independence or Refer Such
           Allegations To the Appropriate Agency....................................................... 37
                     Recommendation 37................................................................... 38

Appendices
    Appendix I:            Acronyms. ................................................................................ 39
    Appendix II:           Scope and Methodology .......................................................... 41
    Appendix: III          List of Recommendations......................................................... 42
    Appendix IV:           Management Comments.......................................................... 51
    Appendix V:            OIG Response to Management’s Comments........................... 64
    Appendix VI:           A Detailed Trading Volume Analysis ........................................ 66

Tables
     Table 1: Selected Stocks from Kingate’s Account Statements,
        March 10 – March 15, 2005 ........................................................................ 69
     Table 2: Kingate’s Volume Compared to BMIS’ Officially Cleared
        and Settled Volume, March 10 – March 15, 2005....................................... 71
     Table 3: Feeder Fund’s Equity Positions Compared to BMIS’ DTC
        Positions, Selected S&P 100 Stocks – January 26, 2005 ........................... 72
     Table 4: Kingate Funds Advised by Madoff – Selected Stocks,
        March 10 – March 15, 2005 ........................................................................ 74
     Table 5: Madoff’s Trading Volume from OATS, Six Stocks: Microsoft,
        Intel, Dell, Oracle, Amgen and Cisco, March 10 – March 15, 2005 ........... 76




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC             September 29, 2009
Report No. 468
                                                    viii
                   Background and Objectives

Background
On December 11, 2008, the Securities and Exchange Commission (“SEC” or
“Commission”) charged Bernard L. Madoff (“Madoff”) and his investment firm,
Bernard L. Madoff Investment Securities LLC (“BMIS”), with securities fraud for a
multi-billion dollar Ponzi scheme that he perpetrated on advisory clients of his
firm. The complaint charged the defendants with violations of the anti-fraud
provisions of the Securities Act of 1933, the Securities Exchange Act of 1934 and
the Investment Advisers Act of 1940. In addition, the U.S. Attorney’s Office in the
Southern District of New York also indicted Madoff for criminal offenses on the
same date. On March 12, 2009, Madoff plead guilty to all charges and on June
29, 2009, federal District Judge Denny Chin sentenced Madoff to serve 150
years in prison, which was the maximum sentence allowed.

By mid-December 2008, the Commission learned that credible and specific
allegations regarding Madoff’s financial wrongdoing, going back to at least 1999,
were repeatedly brought to the attention of SEC staff, but were never
recommended to the Commission for action. As a result, former Chairman Cox
requested that the SEC's Office of Inspector General (“OIG”) conduct a full and
immediate investigation of the past allegations regarding Madoff and his firm and
the reasons they were not found credible.

On June 25, 2009, FTI Consulting, Inc. (“FTI”) was retained 1 by the OIG to
conduct a review to assess the adequacy of the SEC’s Office of Compliance
Inspections and Examinations’ (“OCIE”) conduct, primarily with regard to two
examinations. The first was the Washington, D.C. OCIE cause examination that
was triggered by a submission from a hedge fund manager (hereinafter referred
to as the “Hedge Fund Manager’s Complaint”) about Madoff and was conducted
principally in 2004 (hereinafter, referred to as the “2004 OCIE Cause
Examination”). The second was the examination conducted by the SEC’s
Northeast Regional Office (“NERO”) as a result of internal emails they uncovered
in connection with a routine examination of an SEC-registered firm, detailing
concerns about Madoff’s operations, which was conducted mostly in 2005
(hereinafter, referred to as the “2005 NERO Cause Examination”). 2

1
  FTI had been previously retained by the SEC OIG in February 2009 to assist with the OIG’s
investigation of OCIE’s examinations of Madoff and thus had the opportunity to review the
documents and testimony in connection with the SEC examinations of BMIS and Madoff.
Members of the FTI Engagement Team provided expert analysis to the OIG in the preparation of
its Report of Investigation.
2
  As discussed in the OIG Report of Investigation No. 509, OCIE also conducted the following
examinations of BMIS since 1992: 1992 cause examination; 1994 special purpose examination;

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 1
For this engagement, OIG requested a team of FTI professionals from various
disciplines, who are referred to, collectively, as the FTI Engagement Team. (The
individual members of the FTI Engagement team are identified and biographies
provided on pages 5 – 6 of the OIG’s Report of Investigation dated August 31,
2009). The FTI Engagement Team reviewed the OIG’s Report of Investigation
dated August 31, 2009 and also analyzed a number of other relevant sources in
order to identify areas of improvement to OCIE’s examination program including,
but not limited to, the following: GAO Report to Congress dated August 2007
(“Steps Being Taken to Make Examination Program More Risk-Based and
Transparent”); U.S. Chamber of Commerce Report dated February 2009
(“Examining the Efficiency and Effectiveness of the U.S. Securities and
Exchange Commission”); and recent submissions from Lori Richards, former
Director of OCIE, and John Walsh, Chief Counsel and acting Director of OCIE, to
David Kotz. As a result, some of the FTI Engagement Team’s recommendations
may include a broader application than the 2004 OCIE Cause Examination and
the 2005 NERO Cause Examination; however, such recommendations remain
relevant to the goal of improving OCIE’s examination program.

Objectives
The OIG conducted a comprehensive investigation of the OCIE examinations of
Madoff and BMIS that were triggered by credible and detailed complaints
concerning Madoff’s operations. The OIG issued a 457-page Report of
Investigation on August 31, 2009 entitled, “Investigation of Failure of the SEC to
Uncover Bernard Madoff’s Ponzi Scheme.”

In light of these investigative findings, the OIG retained the services of the FTI
Engagement Team as experts in the areas of forensic accounting and regulatory
examinations to examine and analyze the OCIE workpapers and reports in
connection with the OCIE examinations of Madoff and BMIS and review OCIE
modules, policies, procedures and guidance associated with the conduct of its
examinations. The FTI Engagement Team was also tasked with providing
specific and concrete recommendations designed to improve the operations of
OCIE based upon its findings in the review.




1995 oversight examination; 1998 inspection of third-market firms; 1999 special purpose
examination; and the 2003 QQQ examination, and the FTI Engagement Team reviewed
documents and information concerning those examinations as well.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 2
              Findings and Recommendations

Finding 1: OCIE Did Not Properly Evaluate in
a Timely Manner Red Flags Provided in News
Articles From 2001 That Raised Red Flags
About Madoff
        Two articles published in 2001, one from Barron’s entitled
        “Don’t Ask, Don’t Tell: Bernie Madoff is so secretive, he even
        asks his investors to keep mum” and another from
        MAR/Hedge entitled “Madoff tops charts; skeptics ask how,”
        raised red flags concerning Madoff’s returns and trading
        strategy but were not adequately evaluated by OCIE. OCIE
        had no formal policy with regard to how it vetted news
        articles and other industry sources. Moreover, OCIE did not
        open the 2004 OCIE Cause Examination of BMIS until it
        received other tips and/or complaints two years later.

The objective of a cause examination is to investigate a potential violation of
securities laws. Potential violations come to the attention of OCIE through three
principal means:

    1. Routine examinations – While conducting a routine examination for one
       broker-dealer (“BD”) or registered investment adviser (“IA”), an examiner
       may come across information that points to a potential violation at another
       BD or IA firm.
    2. News reports and articles – A journalist may have sources that are
       sufficiently well-informed, allowing for publication of potential securities
       law violations at specific firms.
    3. Outside Tips or Complaints – Complaints from investors, whistleblowers or
       market participants may come to the attention of OCIE through any of the
       SEC’s divisions or offices.

Regardless of the source, the information relating to a potential violation (referred
to generically as a “complaint,” or “tip”) must be properly vetted to determine if
the information is sufficiently specific to establish the nature of the potential
violation and whether the potential violation is severe enough to merit a cause
examination. The MAR/Hedge and Barron’s articles quoted industry sources and
discussed a number of issues, including Madoff’s highly unusual market-timing;
his unusually consistent, non-volatile returns; and his ability to buy and sell
securities without affecting the market. In our opinion, there was sufficient detail


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 3
in these articles to warrant additional scrutiny due to the red flags raised. 3
However, there is no evidence that OCIE personnel evaluated the merits of the
issues raised until receiving additional complaints several years later.

In order for articles and other industry sources to be properly vetted, examiners
need access to these sources and also need to understand how to analyze the
information contained in them. The FTI Engagement Team understands that
OCIE’s Office of Risk Assessment currently monitors industry trends and
developments, in part, by reviewing industry reports and news articles. OCIE
staff also has access to news aggregator products (i.e., Factiva, Dow Jones
Interactive), industry specific news services (Ignites, FundFire, etc.) and
subscription services such Thomson Research, Bloomberg, Lexis and Westlaw.
Notwithstanding the access, however, we found that OCIE did not conduct
sufficient review and follow-up of the two articles raising concerns about Madoff’s
operations.

Recommendation 1:

The Office of Compliance Inspections and Examinations (“OCIE”) should provide
all examiners access to relevant industry publications (i.e., MAR/Hedge-type
publications) and third-party database subscriptions sufficient to develop
examination leads and stay current with industry trends. OCIE should regularly
(i.e., quarterly) assess whether they have adequate access to relevant industry
publications and other such sources (newsletters, independent subscription-type
news alerts, etc.) and make reasonable attempts to gain such access.

Recommendation 2:

The Office of Compliance Inspections and Examinations should establish a
protocol for searching and screening news articles and information from relevant
industry sources that may indicate securities law violations at broker-dealers and
investment-advisers. The protocol should include flexible searching capability to
help identify specific areas of risk or concern and should include access to all
relevant industry publications. The protocol should also include adequate
screening criteria to eliminate unnecessary results and/or to more narrowly
define a search in order to generate sufficient results. The screening criteria and
any changes should be documented and the protocol should be re-assessed
regularly (i.e., quarterly) in order to determine if any modifications are
appropriate.



3
 As the OIG’s Report of Investigation dated August 31, 2009 discusses in detail, there is
evidence that former Director of OCIE Lori Richards believed that the Barron’s article itself was a
sufficient basis for an OCIE examination simply based upon her review of the article.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC    September 29, 2009
Report No. 468
                                               Page 4
Recommendation 3:

The Office of Compliance Inspections and Examinations (“OCIE”) should
establish a protocol that explains how to identify red flags and potential violations
of securities law based on an evaluation of information found in news reports and
relevant industry sources. The protocol should also determine how decisions on
whether to initiate cause examinations are made and by whom, set a reasonable
time frame for evaluation (i.e., 90 days) of the search results and provide
notification to OCIE management when such time has expired.


Finding 2: OCIE Did Not Properly Evaluate a
Credible Complaint From an Industry Source
During 2003 That Raised Red Flags About
Madoff
        A detailed complaint from a highly credible hedge fund
        manager employed at a SEC-registered fund of hedge funds
        was provided to OCIE during May 2003 (the “Hedge Fund
        Manager’s Complaint”). Although the 2004 OCIE cause
        examination was eventually opened to address alleged front-
        running activity at Madoff, the cause examination was not
        opened until six months after the complaint was received
        and did not address several significant issues and red flags
        raised in the tip.

The Hedge Fund Manager’s Complaint was based on due diligence
investigations it conducted into BMIS during 1998 and 2003. OCIE was familiar
with the firm that provided the complaint and had recently conducted an
examination of the firm. Testimony by OCIE personnel adjudged the hedge fund
manager that provided the complaint to be a highly credible source of information
and described his firm as very experienced and technically savvy.

Given the credibility of the 2003 Hedge Fund Manager’s Complaint, the delay of
over six months that occurred from the time the complaint was received until the
start of the cause examination was an unreasonably long period of time due to
the inherent nature of cause examinations. Cause examinations should be
initiated as soon as possible based on their urgency and importance. Delays in
starting a cause examination may prolong the effects of any illegal conduct,
which may increase the potential harm to investors and capital markets. Despite
this, the cause examination was not opened until another tip alleging front-




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 5
running came to OCIE from the Division of Enforcement during December 2003
(the “Enforcement Tip”). 4

In addition, OCIE had no formal policies and procedures for handling tips and
complaints. Such policies and procedures would have provided personnel with
discrete guidelines to assist with the analysis and management of processing tips
and complaints. Such a system would allow for appropriate personnel to monitor
the status of the tips and complaints and could also alert personnel when
additional action was needed.

With regard to information from the hedge fund employee, OCIE did not monitor
the status of the Hedge Fund Manager’s Complaint and it does not appear that
anyone within OCIE management took ownership or responsibility for timely
resolution of the tip. As a result, the Hedge Fund Manager’s Complaint was left
inactive for months because there was no system to alert or remind staff that
further action needed to be taken.

Once the 2004 OCIE Cause Examination was opened, it did not address several
significant issues and red flags raised in the Hedge Fund Manager’s Complaint
but instead looked at the front running allegations in the Enforcement Tip. In
mid-December 2003, OCIE prepared a Planning Memorandum that described
the limited scope of its cause examination, which was primarily focused on front-
running. Specific allegations and concerns were raised in the Hedge Fund
Manager’s Complaint were not addressed in the Planning Memorandum. 5

During January 2004, at least one OCIE manager contacted the hedge fund
manager’s firm to discuss issues contained in the Hedge Fund Manager’s
Complaint. OCIE did not have policies and procedures for documenting such
conversations with registrants (see Finding 4), and as a result, the identity of all

4
  The pretext for the Enforcement Tip was likely that Madoff was using customer trading
information from his market-making operations (another, presumably legitimate, part of BMIS) to
front-run trades for his investment advisory clients and that front running would explain the
consistent returns he reported to his investment advisory clients. Front running is an illegal
attempt by a broker to insert one trade for the broker’s benefit in front of a large trade order
received from the broker’s customer. The front-running broker hopes to profit from his knowledge
that a large order is about to enter the market by taking a position in the stock before the large
trade arrives. The front-runner’s trade, though, is usually much smaller than the customer order
so as not to move stock prices until the larger order is being executed. After the larger order
executes, the front-runner will likely liquidate its position immediately.
5
  Such issues and concerns included Madoff’s fee structure; whether or not there was enough
market volume to support $8-10 billion of alleged trading by Madoff; whether or not the returns
should have had a noticeable correlation to the overall equity markets; why the accounts held
only cash at the end of the month; lack of a third-party broker; reports that the auditor was a
related party; lack of independent custodian; and generally, whether or not the purported returns
were feasible given the nature of the investment strategy and the large amount of assets
purported to be under management. The complaint did not explicitly mention front-running as an
issue.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 6
participants and a clear, contemporaneous record of all substantive discussions
during the call were not documented. Moreover, examination team members
who did not participate in the call may not have been provided important
information or details that could have been helpful during the examination. In
addition, members of the examination staff indicated that they had not seen the
Hedge Fund Manager’s Complaint or all of its supporting documentation. Due to
the nature of the specific allegations, the cause examination team members were
not provided critical information needed to adequately conduct the 2004 OCIE
Cause Examination (see Finding 5).


Finding 3: NERO Did Not Properly Evaluate a
Credible Complaint From an Industry Source
During 2005 That Raised Red Flags About
Madoff
        A detailed analysis presented in a series of emails from a
        registered investment adviser came to the attention of NERO
        during 2004 (the “2004 Complaint”), which resulted in the
        NERO 2005 Cause Examination of front-running and cherry-
        picking activity at BMIS. The analysis performed by an
        employee at the investment adviser concluded that Madoff
        must have been misrepresenting his trading. However, the
        cause examination was not opened until eight months after
        the 2004 Complaint was received and it did not address
        several significant issues and red flags raised in the
        complaint.

Similar issues raised in the Hedge Fund Manager’s Complaint preceding the
2004 OCIE Cause Examination came to light with regard to the 2004 Complaint
discovered by NERO during a SEC examination of a registered investment
adviser in 2004. The 2004 Complaint was detailed, viewed as credible by NERO
management and deemed worthy of a cause examination. The start of the
examination, though, was delayed considerably in order to assign a particular
NERO examiner who presumably had a sophisticated knowledge of options
trading. However, no attempts were made by NERO to request such expertise
from other offices or divisions of the SEC in order to begin the examination
sooner.

In addition, NERO examination staff never contacted the investment adviser that
was the source of the 2004 Complaint in order to clarify or glean additional
insight regarding the issues raised in the complaint. The 2004 Complaint raised
a number of issues and concerns with regard to BMIS and its order routing for

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 7
trades, consistent returns, fee structure, and auditor independence. The 2004
Complaint also raised additional concerns about Madoff’s representations
concerning his options trading and his secrecy. Despite the specific concerns
raised in the 2004 Complaint, NERO conducted only a narrowly focused
examination of Madoff for front-running and cherry-picking activity. 6 NERO did
not prepare a planning memorandum addressing the scope of the examination
and the reasons for such a limited scope.

OCIE contends that limited resources may affect examination activity. In the
letter dated July 1, 2009 from OCIE to the OIG, Lori Richards explained that
there are inherent limitations with regard to matters that can be worked on by
examiners: “Given the large number of firms subject to examination oversight by
the SEC and the relatively small number of SEC staff examiners, the SEC does
not conduct comprehensive examinations, and it does not examine all firms that
are registered with SEC. Examiners generally work on a number of examination
matters simultaneously, and seek to prioritize the highest-risk firms and issues
that most warrant examination.” OCIE claims staffing limitations may continue to
have a significant impact on OCIE’s ability to conduct examinations in the future.

It is the FTI Engagement Team’s understanding that the SEC has recently taken
steps to improve its ability to handle tips and complaints. In February 2009, the
SEC retained the Center for Enterprise Modernization to begin work on a
comprehensive review of internal procedures to evaluate tips, complaints, and
referrals. The FTI Engagement Team has learned that the project is intended to
be significant in scope and has not yet been completed. On August 5, 2009,
Robert Khuzami, Director of the Division of Enforcement, announced the creation
of an Office of Market Intelligence. The Office of Market Intelligence will be
responsible for the collection, analysis, risk-weighing, triage, referral and
monitoring of the hundreds of thousands of tips, complaints and referrals that the
Commission receives each year.

While the SEC has begun the process of developing policies and procedures to
improve the manner in which they evaluate tips and complaints, these
procedures, when finalized, need to be tested to ensure that they operate
effectively.

Recommendation 4:

In accordance with the findings of the Center for Enterprise Modernization project
and prior to its completion, the Office of Compliance Inspections and
Examinations (“OCIE”) should implement an OCIE-related collection system that
adequately captures information relating to the nature and source of each tip or

6
 Cherry-picking is the illegal practice of improperly allocating losing (or less profitable) trades to
one account with winning trades allocated to another.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC       September 29, 2009
Report No. 468
                                               Page 8
complaint and also chronicles the vetting process to document why each tip or
complaint was or was not acted upon and who made that determination. All
OCIE examiners should be given access to the system in order to be able to
timely view and monitor tips and complaints that may be relevant to examinations
they are preparing to conduct or are actively conducting. In addition, OCIE
examiners should be given adequate access to tips and complaints received by
the newly-created Office of Market Intelligence and other relevant sources such
as the Office of Investor Education and Advocacy.

Recommendation 5:

The Office of Compliance Inspections and Examinations (“OCIE”) should
annually review and test the effectiveness of its policies and procedures with
regard to its tip and complaint collection system. OCIE should also modify these
policies and procedures, where needed.

Recommendation 6:

Tips and complaints reviewed by the Office of Compliance Inspections and
Examinations that appear on the surface to be credible and compelling
should be probed further by in-depth interviews with the sources to assess
their validity and to determine if there are other issues that need to be
investigated. Any apparent contradictions in tip or complaint information
need to be resolved as early as possible in the examination process through
interviews with appropriate sources or further independent research.
Findings from such interviews should be adequately documented and should
be required reading for examination team members.

Recommendation 7:

All Office of Compliance Inspections and Examinations (“OCIE”) related tips
and/or complaints that are not vetted within 30 days of receipt should be brought
to the attention of the OCIE Director with an explanation for the delay. All OCIE-
related tips and/or complaints that merit a cause examination for which that
examination does not begin within 60 days of receipt (a “Post-60 Day
Examination”) must be reported to the OCIE Director with a monthly tally of yet-
to-be-opened Post-60 Day Examinations sent to the Securities and Exchange
Commission Chairman.

Recommendation 8:

All potentially relevant information received by the Office of Compliance
Inspections and Examinations from a tip or complaint source should be
preserved as a complete unit and should be augmented with relevant information

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                               Page 9
that may have been provided in subsequent submissions by that source. Once
an examination has been initiated, such information should be required reading
for examination team members.


Finding 4: NERO Did Not Prepare a Planning
Memorandum For the 2005 NERO Cause
Examination of Madoff
        NERO Did Not Prepare a Planning Memorandum For the
        2005 NERO Cause Examination of Madoff. At the time,
        NERO had no policies and procedures that required the use
        of a Planning Memorandum.

The 2004 Complaint that triggered the 2005 NERO Cause Examination included
highly detailed e-mails discussing a number of issues and concerns with regard
to BMIS and its order routing for trades, consistent returns, fee structure, and
auditor independence. The 2004 Complaint also raised additional concerns
about Madoff’s representations concerning his options trading and his secrecy.
The examination staff had copies of the MAR/Hedge and Barron’s articles, both
of which raised similar issues. However, these issues were not included in the
apparent scope of the 2005 NERO Cause Examination. At the time, there were
no formal policies in OCIE or NERO that required the preparation of a Planning
Memorandum. As a result, a Planning Memorandum was never drafted by
NERO that explained the focus or explicitly described the scope of its cause
examination.

Apparently, the issues raised in the 2004 Complaint were never fully vetted by
the examination team and its supervisors. One NERO examiner testified that
although they may have reviewed e-mails contained in the complaint, they were
never discussed with their supervisors. Another examiner testified that he may
have reviewed “snippets” of the emails contained in the 2004 Complaint, but
really used the Barron’s article and the MAR/Hedge article as a starting point
rather than the e-mails. Had the scope of the examination been adequately
analyzed and documented, it likely would have resulted in a cause examination
more closely focused on the issues raised in the 2004 Complaint.


Finding 5: The OCIE Planning Memorandum
Was Inadequate in its Scope and Execution
        The OCIE Planning Memorandum in connection with the
        2004 OCIE Cause Examination of BMIS was inadequate in

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 10
        its scope because it did not reflect an appropriate analysis of
        the Hedge Fund Manager’s Complaint that was received by
        OCIE. The execution of the OCIE Planning Memorandum
        was also inadequate because the OCIE examination team
        did not achieve the basic objectives of the memorandum.

The basis for the determination of the focus of the 2004 OCIE Cause
Examination lacked an appropriate analysis of the Hedge Fund Manager’s
Complaint. OCIE management indicated that the Market Oversight/SRO group
decided to focus on front-running during the cause examination because that
was the group’s area of expertise. The decision to focus entirely on front-running
was an improper one as the Hedge Fund Manager’s Complaint clearly identified
other critical issues unrelated to front-running. The Planning Memorandum that
was prepared by OCIE was evidence of this overly narrow focus. A review and
comparison of the Hedge Fund Manager’s Complaint to the Planning
Memorandum should have raised questions as to why such significant
allegations were not included. In particular, management from OCIE’s IA group
likely would have recognized issues that were not related to front-running that
should have been considered during the cause examination, had they been given
an opportunity to review the Planning Memorandum.

Subsequent to the preparation of the Planning Memorandum, at least one OCIE
manager had a phone conversation with the individual that provided the Hedge
Fund Manager’s Complaint. The OCIE manager’s notes of that conversation
indicate that during the call they discussed several of the concerns relating to
BMIS raised in the tip (that were unrelated to front-running), including consistent
returns, volume of options trading, whether the strategy is actually executed, and
the operating structure of BMIS. Yet, no subsequent revision was made to the
Planning Memorandum to address those concerns.

The execution of the narrowly-focused Planning Memorandum was flawed
because it included a request to NASD for trading data, but that request was
never sent. Data provided by NASD would have allowed OCIE to examine
whether or not BMIS was indeed front running its broker-dealer customers.
Trading data from NASD, for instance, would have provided (presumed)
execution times of trades for BMIS discretionary brokerage accounts, which
would be needed to compare to the time of each customer order to determine if
Madoff ran trades for his discretionary accounts in front of trades received from
customers of the BMIS market making operations. In addition, if the Planning
Memorandum had properly provided for investigation of the Hedge Fund
Manager’s Complaint, the letter to NASD was critical to the review of the tip’s
trading allegations because the data and information from NASD would have
assisted in independently verifying trading activity conducted at BMIS (See
Finding 9).


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 11
The FTI Engagement Team understands that scope memoranda are now
regularly used throughout OCIE for routine and oversight examinations. An
OCIE memorandum to all regional offices dated November 25, 2008 announced
the implementation of a “…standard examination scope memorandum to be used
by the broker-dealer, investment adviser/company, and transfer agent
examination staff when conducting routine or oversight examinations.” The
memorandum further states, “[u]nder this new guidance, a brief scope
memorandum (i.e., typically no more than 2-4 pages) should be prepared for
broker-dealer examinations, routine investment adviser and investment company
examinations, and transfer agent examinations.” The procedures require
documentation that management approved the selection and scope of each
examination. The procedures also allow for a modification of the scope as new
information is obtained during the examination and any significant modifications
to the scope should be reflected in the examination report.

While scope memoranda are now presumably being utilized in a more formalized
manner, these memoranda must be carefully prepared and executed correctly in
order to eliminate errors that we found in the 2004 OCIE Cause Examination and
2005 NERO Cause Examination of BMIS.

Recommendation 9:

The Office of Compliance Inspections and Examinations (“OCIE”) should
augment its policies and procedures related to the use of scope memoranda to
better reflect particular consideration given to information collected as the result
of tips and complaints that lead to cause examinations. When all potentially
relevant tip and complaint source data, background information and research
have been collected into one complete unit (see Recommendation 8),
examination staff should identify all relevant potential securities law violations
and other concerns and then prepare a planning memorandum that ties each and
every potential violation and issue into the scoping discussion in the
memorandum. The Planning Memorandum should include the basic steps that
need to be taken in order to address the issues identified in the scope
discussion. The Planning Memorandum should be reviewed, approved and
signed (or initialed) by senior OCIE management (i.e., assistant director level or
higher) and should include the names of the individuals who prepared and
reviewed the document.

Recommendation 10:

The Office of Compliance Inspections and Examinations (“OCIE”) should timely
modify or append the scope memorandum when significant new facts and issues
emerge. The modified or supplemental scoping memorandum should be
reviewed, approved and signed (or initialed) by senior OCIE management (i.e.,


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 12
assistant director level or higher) and should include the names of the individuals
who prepared and reviewed the document.
Recommendation 11:

After examination scoping provisions have been approved, along with all other
elements of the Planning Memorandum, the Planning Memorandum should be
subjected to concurring review by an unaffiliated OCIE associate or assistant
director (“Concurring Director Review”), and the person performing the
Concurring Director Review should also recommend additional concurring
reviews from the Commission’s Office of Economic Analysis, Office of Chief
Accountant or other offices or divisions of the Commission as needed. All
concurring reviewers should sign off on the Planning Memorandum indicating
their approval and add any comments on the proposed scope or other areas
discussed in the memorandum.

Recommendation 12:

After the Planning Memorandum is first drafted, it should be circulated to all
examination team members, and all team members should then meet, in person
or electronically, to discuss the examination approach and methodology set out
in the memorandum, as well as any other issues the team members wish to
raise.

Recommendation 13:

The examination team leader should ensure that all steps of the examination
methodology, as stated in the Planning Memorandum, are completed and either
the team leader or the appropriate team member should sign off on each step as
it is completed.


Finding 6: The Communication and Information
Sharing Among OCIE Personnel Were Inadequate
        The pre-examination preparation that was conducted for the
        2004 OCIE and 2005 NERO Cause Examinations was
        inadequate. The Super Tracking and Reporting System
        (“STARS”) was not properly used to log the initiation of the
        cause examinations.    OCIE did not provide a closing
        memorandum or status report on the 2004 OCIE Cause
        Examination when it provided its examination workpapers to
        NERO.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 13
OCIE senior personnel held an initial conversation with Madoff concerning its
upcoming 2004 OCIE Cause Examination. At the time of the examination,
however, OCIE did not have policies and procedures requiring documentation of
substantive interviews and pre-examination calls conducted by OCIE of
registrants. As a result, the identity of all participants and a clear,
contemporaneous record of all substantive discussions during the call were not
documented.

The 2004 OCIE Cause Examination team also did not enter its examination into
STARS. Market Oversight staff and management at that time regularly did not
log new examinations into STARS. As a result, other OCIE staff members,
including personnel in the regional offices, were unaware of OCIE’s ongoing
cause examination of BMIS. In fact, the 2005 NERO Cause Examination team
learned of OCIE’s examination directly from Madoff during May 2005 and
contacted OCIE, which until then, was unaware of the ongoing NERO
examination of BMIS. The failure of one office to realize a duplicative
examination was being conducted by another office resulted in embarrassment
and a waste of Commission resources.

Once the two teams became aware of their common objective, the exchange of
documents and information was inadequate. The 2004 OCIE Cause
Examination team sent their examination papers to NERO on June 9, 2005. The
2005 NERO Cause Examination team noted that OCIE never documented their
findings and did not provide a status report or closing memorandum that would
identify any conclusions and open issues (See Finding 11). At the time, OCIE
did not have formal policies and procedures that required closing memoranda for
examinations.

Presumably, OCIE now has new procedures for the use of STARS. An OCIE
document titled, “Office of Market Oversight’s Document Policies and
Procedures,” dated November 27, 2007, indicates that only non-SRO 7
examinations (broker-dealers, investment advisers, investment companies and
transfer agents) should be entered into STARS. However, on June 5, 2009,
OCIE indicated to the OIG that it intends to ensure that SRO inspections will be
included as well.

As to documentation of findings, OCIE’s Examination Program Manual for
Organization of Examination Workpapers dated July 8, 2008 now provides
guidance with regard to a number of issues confronted by the examiners. For
instance, the manual indicates that examiners should prepare and retain
summaries of significant discussions with the registrant’s personnel or outside
parties and the examiner should note any significant unresolved issues in the
workpapers. The Program Manual states that a list of these unresolved issues

7
    SRO stands for Self-Regulatory Organizations, such as FINRA and U.S. securities exchanges.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 14
should be prepared and given to the branch chief or team leader for review and
disposition prior to closing the examination/inspection, that all discussions
regarding document production should be documented (including use of a call
log), and that the examiners should retain notes or emails as to why any
documents were inexplicably or extraordinarily delayed or could not be produced.

Documenting interviews of registrants and third-parties during examination
activities is critical to the conduct of an effective examination. In addition,
mandating and enforcing vigilant use of an examination tracking system
(currently the STARS system) is necessary to ensure that SEC examination are
conducted efficiently and appropriately and information is properly shared
between offices.

Recommendation 14:

Substantive interviews conducted by the Office of Compliance Inspections and
Examinations (“OCIE”) of registrants and third-parties during OCIE’s pre-
examination activities and during the course of an active examination should be
documented with notes circulated to all team members. After each substantive
interview during the examination, the team leader should re-evaluate the
examination scope and methodology as set out in the Planning Memorandum to
determine if the examination needs to be expanded and indicate by initialing the
interview notes that the team leader has performed that evaluation.

Recommendation 15:

The workpapers for a given examination should be in sufficient detail to provide a
clear understanding of its purpose, source, and the conclusions reached. Also,
the documentation should be appropriately organized to provide a clear link to
the significant findings or issues. 8

Recommendation 16:

When logging all Office of Compliance Inspections and Examinations
examinations into an examination tracking system, the team leader should verify
that the appropriate entry is made into the tracking system and, with a notation in
the Planning Memorandum, indicate that such entry has been made with the
team leader’s initials.

8
 This requirement for work paper documentation is taken from the objectives of audit work paper
documentation for public company audits adopted by the Public Company Accounting Oversight
Board as expressed on paragraph 4 of Auditing Standard 3:
        Audit documentation should be prepared in sufficient detail to provide a clear
        understanding of its purpose, source, and the conclusions reached. Also, the
        documentation should be appropriately organized to provide a clear link to the
        significant findings or issues. [Footnote omitted.]

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 15
Recommendation 17:

The Office of Compliance Inspections and Examinations should annually review
and test the effectiveness of its policies and procedures with regard to
conducting, documenting and concluding its examinations 9 and modify the
policies and procedures, where needed.


Finding 7: OCIE and NERO Did Not Form
Appropriate Examination Teams Necessary to
Conduct the Examinations
        OCIE’s SRO group and NERO did not form appropriate
        examination teams necessary to conduct their cause
        examinations of BMIS based on the allegations raised in the
        Hedge Fund Manager’s Complaint and 2004 Complaint,
        which included issues typically examined by investment
        adviser personnel including verification of purported
        investment returns and account balances. Although the
        SRO group and NERO had no significant experience
        conducting examinations related to verification of purported
        investment returns and account balances, the examination
        teams did not include individuals with such expertise.

OCIE management acknowledged that its investment adviser personnel would
have known to look specifically at the investment returns and verify custody of
the assets, yet such personnel were not contacted for such assistance in
connection with both the 2004 OCIE Cause Examination and 2005 NERO Cause
Examination of BMIS.

An appropriately thorough analysis of the Hedge Fund Manager’s Complaint
and 2004 Complaint leading to the creation of the examination teams should
have indicated to the individuals selecting the team that a collaboration
between the BD and IA groups was necessary to fully understand certain
issues raised, including, but not limited to, the BMIS fee structure, unusually
consistent returns, purported trading strategy and accounts going to cash
each month. Collaboration among the groups from BD and IA was critical in
order to utilize IA’s expertise associated with fee structures, compensation

9
 Similarly, investment firms are required to develop and implement policies and procedures
designed to guide their securities activities and detect and prevent violative conduct. Broker
Dealer policies and procedures must be reviewed for adequacy on an annual basis – see FINRA
Rule 3130(b). Investment advisers must conduct an annual review of their policies and
procedures – see Investment Advisers Act of 1940 Rule 206(4)-7(b).

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 16
arrangements, performance reporting, performance marketing materials,
custodial arrangements and cherry-picking.

Both examination teams lacked a Branch Chief during the examinations. A
Branch Chief that was initially assigned to the 2004 OCIE Cause
Examination was promoted to Assistant Director and was never replaced
with another Branch Chief. During the 2005 NERO Cause Examination, a
Branch Chief was never assigned. As a result, examiners were left
unsupervised for significant portions of the onsite examination. There was
also no clear designation as to who served as team leaders during both
examinations.

The examination teams also lacked expertise related to effectively identifying
signs of fraud. The inconsistent and contradictory explanations of trading
strategies that Madoff provided to both examination teams and Madoff’s
suspicious behavior, which included, agitation, secrecy and anger when
certain documents or information was sought during the 2005 NERO Cause
Examination, should have been interpreted as indications that he was
deliberately misleading staff in order to mask illegal activity. Training in
understanding behavioral communication such as agitation, secrecy and
anger would appear to be a missing component of the OCIE examiner’s
repertoire.

In a letter dated July 1, 2009 to OIG, OCIE indicated that it has made significant
enhancements to the examination process since the Madoff fraud was revealed
in December 2008 including, but not limited to:

    •   Joint regulatory (SEC, Financial Industry Regulatory Authority (“FINRA”)
        and North American Securities Administrators Association (“NASAA”))
        training for examiners on strategies to detect and investigate indications of
        fraud of various types, including Ponzi schemes, offering frauds,
        manipulations and other types of fraud.
    •   Special OCIE training conducted in March 2009 with regard to strategies
        to identify and investigate Ponzi schemes, affinity frauds and other related
        schemes.
    •   Training for more than 300 examination staff to become Certified Fraud
        Examiners.
    •   Focused training in particular key areas such as options, derivatives,
        trading, anti-money laundering, financial/net capital issues and issues
        associated with firms that are registered as both broker-dealers and
        investment advisers.
    •   Expanding examination activity of joint or dual registrants to assure that
        examiners have “eyes on” all activities, particularly advisers that use an
        affiliated broker-dealer for custody of advisory clients’ assets.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 17
The failure to form appropriate examination teams and the resulting
inexperienced teams led to an inability to conduct the cause examinations of
BMIS in an effective manner and must be remedied in order for OCIE to uncover
fraud in future cause examinations.

Recommendation 18:

The focus of an examination should drive the selection of the examination team
and team members should be selected based upon their expertise related to
such focus. There should also be a clearly defined examination team leader.
Staffing decisions should be made by senior Office of Compliance Inspections
and Examinations management (assistant director level or higher) after
management has performed adequate pre-examination preparation so that
management can make appropriate choices. The examination team should not
be selected solely based on availability.

Recommendation 19:

Senior Office of Compliance Inspections and Examinations (“OCIE”)
management should ensure that personnel with the appropriate skills and
expertise are assigned to cause examinations with unique or discrete needs (i.e.,
options expertise). OCIE should regularly seek out the appropriate expertise
from other offices or divisions within the SEC and encourage intra-agency
collaboration wherever possible.

Recommendation 20:

The Office of Compliance Inspections and Examinations should assign a Branch
Chief, or a similarly designated lead manager, on every substantive project
including all cause examinations. The Branch Chief or designated lead manager
must be onsite or in direct communication with the onsite staff daily during the
onsite portion of the examinations. Lower lever or junior staff examiners must
not be left unsupervised during substantive discussions with principals or senior
executives at the registrant during the examination.

Recommendation 21:

The Office of Compliance Inspections and Examinations (“OCIE”) should develop
a formal plan with specific goals associated with achieving and maintaining
professional designations and/or licenses by industry certification programs that
are relevant to the examination activities conducted by OCIE. For instance,
within the next three years, 50% of OCIE staff and management associated with
examination activities should be qualified by means of a certification applicable to
their profession such as the Association of Certified Fraud Examiners’ Certified
Fraud Examiner designation, the American Institute of Certified Public

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 18
Accountants’ Certified in Financial Forensics designation and/or the FINRA
General Securities Principal license required of investment professionals. 10
These should include an annual continuing education component for each of
these licenses.

Recommendation 22:

The Office of Compliance Inspections and Examinations (“OCIE”) should develop
and implement interactive exercises to be administered by OCIE training staff or
an independent third party and reviewed prior to hiring new OCIE employees in
order to evaluate the relevant skills necessary to perform examinations. Similar
exercises should be annually administered to all active examination staff and
management in order to identify areas that need further development.


Finding 8: The Examiners Did Not Contact
Madoff’s Clients to Determine Whether He
Provided Investment Advice
        The Examiners did not contact Madoff’s clients to
        corroborate his statement that he did not render investment
        advice. Although names and addresses of Madoff’s clients
        were obtained by examination staff, the examiners never
        contacted any of the clients during their cause examinations.

During the course of the 2004 OCIE and 2005 NERO Cause Examinations,
both examination teams considered whether or not BMIS should be
registered as an investment adviser. One consideration, in particular, was
whether or not BMIS exercised discretionary authority over the accounts or
whether the firm acted strictly as an executing broker as Madoff often
claimed. The written Trading Authorization Directives provided by BMIS
indicted that Madoff had discretion over trading in the accounts of customers
for which he implemented the split-strike conversion strategy. One approach
to verify whether BMIS was exercising discretion and thus serving as an
investment adviser would be to contact the firm’s clients and ask who
authorizes trades.

10
   The investment firms that OCIE examines are required to have their professionals qualified by
exam to perform securities investment activities. OCIE professionals should have a similar
requirement in order to review and examine those activities. The FINRA General Securities
license consists of the Series 7 and 24 courses covering the sales of securities and the
supervision of such sales. The study materials are readily available from several providers. While
OCIE examiners may not be able to sit for certain exams and obtain certain licenses due to their
status as government employees, they are still able to obtain and study the course materials.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 19
During the 2004 OCIE Cause Examination, examiners obtained a list of
clients for which Madoff utilized the split-strike conversion strategy.
However, the OCIE team did not contact the institutional clients Madoff
identified, possibly due to concerns about disrupting BMIS’ business. During
the 2005 NERO Cause Examination, examiners also obtained a list of clients
for which BMIS utilized the split-strike conversion strategy, but the
examination team did not contact any of the funds on the list.

Had the examination team contacted BMIS’ clients, those funds could have
confirmed that BMIS had full discretion over their accounts as well as the
implementation of the trading strategy for those accounts. The funds could
have also provided additional detail with regard to the trading, clearing and
settlement process and who was involved in that process. Finally, each fund
contacted could have verified the number of accounts they had with BMIS in
order to confirm whether Madoff was accurately reporting the number of
accounts for each fund to examination staff. A number of BMIS’ clients were
SEC-registered investment advisers, which meant that the SEC had authority
to request additional information under Section 204 of the Advisers Act.

We understand that OCIE has procedures in place with regard to contacting
registered and unregistered entities for information. SEC Form 1661
“Supplemental Information for Regulated Entities Directed to Supply
Information Other Than Pursuant to a Commission Subpoena” is supposed
to accompany a document request sent by OCIE and provide the registrant
information concerning the possible uses of such information. SEC Form
1662, “Supplemental Information for Persons Requested to Supply
Information Voluntarily or Directed to Supply Information Pursuant to a
Commission Subpoena” is also supposed to be used when contacting a
person or entity that is not registered with the SEC, such as a registrant's
client or customer.

Contacting clients to corroborate statements made by the registrant’s
representative may be critical to uncovering fraud in a cause examination.

Recommendation 23:

Subject to approval of the examination team leader, Office of Compliance
Inspections and Examinations (“OCIE”) examiners should contact clients of a BD
or IA when necessary to confirm statements made by BD or IA personnel.
Examiners should be encouraged to verify representations of third parties by
contacting such parties, and appropriate methods used to contact third parties
should become a part of OCIE’s training of examiners.



Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 20
Finding 9: The NERO Examiners Did Not
Follow-Up on Numerous Contradictions
Discovered During the 2005 NERO Cause
Examination
        The 2005 NERO Cause Examination team did not
        recognize that Madoff was either lying to the examiners
        and/or the feeder funds were making misrepresentations
        to their clients with regard to how the split-strike
        conversion strategy was being implemented. Madoff
        indicated to the examination staff that he no longer traded
        options for the strategy, which contradicted press reports
        and information contained in the 2004 Complaint with
        regard to implementation of the strategy. A number of
        other issues were never fully resolved including the
        number of clients, custody of the assets and verification
        of bank account numbers of various accounts

Though the 2005 NERO Cause Examination was focused on front-running
and cherry-picking, one examination team member picked up on the options
trading volume issue raised in the 2004 Complaint. The examiner’s hand-
written notes in the workpapers indicate that he recognized that there were
questions as to “who is writing these OTC contracts.” The options issues
were never examined however, apparently because the examiner was told
by Madoff that he no longer utilized options trading in the split-strike
conversion strategy after January 2004. The examination team was or
should have been aware that this information was inconsistent with the
MAR/Hedge and Barron’s articles as well as information contained in the
2004 Complaint. Assuming that Madoff was telling the truth about his
options activity, the examination team did not follow up with BMIS’ feeder
funds as to whether those feeder funds may have intentionally or unwittingly
misrepresented to their investors how the strategy was being implemented,
or whether the strategy could be implemented without the use of options.
Such misrepresentations to clients may violate securities laws.

In a memorandum examiners wrote summarizing a meeting with Madoff, they
described how Madoff had changed his story several times. For example,
Madoff had said he had no advisory clients, then he had claimed to have four,
and then “closer to 15.” At one point during the examination, an examiner didn’t
believe the account numbers provided by Madoff were accurate and indicated
that he would research record requirements for those accounts.


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 21
To the extent possible, all discrepancies should be resolved, no matter how
small, as they frequently are indicators of a more serious problem. The
preferable method to resolve a discrepancy is to contact the outside parties
involved.

Examination findings that lead to issues at other securities and investment
firms must be followed up in order for thorough examinations to be
conducted and fraud to be uncovered.

Recommendation 24:

In the course of an examination, if an examiner becomes aware of a potential
securities law violation at another firm, that examiner should consult with the
team leader and the Office of Compliance Inspections and Examinations should
make a referral to the appropriate personnel or agency.


Finding 10: The Examiners Did Not
Understand How BMIS Executed, Cleared and
Settled Trades
Numerous questions were raised by both examination teams regarding BMIS’
trading. The OCIE staff could not understand why BMIS’ trade dates and
settlement dates were inexplicably inconsistent and varied when compared to the
securities industry standard of T+3 (trade date plus three days) and why certain
option trades preceded the equity transactions when the examiner’s
understanding of the split-strike conversion strategy would have indicated
otherwise.

The 2005 NERO Cause Examination staff also had questions about Madoff’s
trading and settlement activity regarding the discretionary brokerage accounts for
his investment advisory clients. The examination staff had been told by Madoff
that Barclays Bank PLC “clears for the brokers in London,” and, in early May
2005, a NERO document request was sent to Barclays asking for “[a]ll trading
done by or on behalf of . . . Fairfield Sentry Ltd.,” “Kingate,” and “[a]ny account
over which Bernard Madoff (or any entity known to the firm to be affiliated with
Bernard Madoff or Madoff Securities) has any direct or indirect trading authority.”
In mid-May, Barclays responded to NERO’s information request, stating that
BMIS had recently opened an account at Barclays, but there was no recent
transaction activity in the account. The response also stated, “[i]t should be
noted that a prime brokerage and trading relationship with a Madoff-affiliated
entity exists with our UK affiliate, Barclays Capital Securities Ltd., an FSA-
regulated institution.” NERO, however, never contacted Barclays Capital

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 22
Securities Ltd. and, therefore, never verified Madoff’s purported European trading
activity regarding the discretionary brokerage accounts for his investment
advisory clients.

During late May 2005, a NERO supervisor instructed the 2005 NERO Cause
Examination team to confirm the details of how BMIS executed and cleared
trades. The NERO examiners identified a number of unresolved issues
regarding the potential role of a number of entities including the executing broker,
prime broker, London Stock Exchange, Barclays and the BMIS U.K. affiliate.
One NERO examiner indicated that these issues were discussed with Madoff
and although Madoff was “somewhat vague regarding the actual execution and
clearance of trades,” the examiners relied upon Madoff’s verbal representations.
The NERO manager that supervised the examiners did not recall whether the
examination team ever followed up on the details of BMIS’ trade executions.

OCIE now has general “Guidance for Contacting Foreign-Based Entities and
Individuals” provided by the SEC’s Office of International Affairs. OCIE has
recently developed templates for contacting registered and unregistered
custodians to assist in the verification of assets during examinations of
broker-dealers and investment advisers.

The failures by the OCIE examination teams to understand critical
representations made by Madoff about his trading activity as well as the
failures to appreciate information obtained during the course of the
examinations concerning Madoff’s lack of trading contributed to OCIE’s
inability to uncover Madoff’s Ponzi scheme. Training is necessary to ensure
that OCIE examiners understand the issues they are examining.

Recommendation 25:

The Office of Compliance Inspections and Examinations examiners should be
trained in the mechanics of securities settlement, both in the U.S. and in major
foreign markets.

Recommendation 26:

The Office of Compliance Inspections and Examinations (“OCIE”) examiners
should be trained by the Office of International Affairs (“OIA”) in methods to
access the expertise of foreign regulators, such as the United Kingdom’s
Financial Services Authority, as well as foreign securities exchanges and foreign
clearing and settlement entities. OCIE examiners should also be trained by OIA
in methods to request and receive information pursuant to SEC Memoranda of
Understanding with those foreign regulators. OCIE in conjunction with OIA
should develop templates for the most frequent types of requests (i.e., sample

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 23
trade data) from foreign regulators based on past experience in order to facilitate
the process. OCIE in conjunction with OIA should develop and utilize contact
lists with such regulators for use by appropriate examination staff.

Recommendation 27:

For significant issues such as whether trades have been executed and who has
custody of assets, in the absence of third party (counterparties, custodians, etc.)
documentation, the Office of Compliance Inspections and Examinations (“OCIE”)
examiners should not simply rely on representations of BD or IA personnel but
should contact third parties directly. OCIE should provide guidance or training
that clarifies for examiners circumstances that require such contact with third
parties.

Finding 11: Neither the OCIE Nor the NERO
Examination Team Attempted to Acquire Trading
Data from FINRA/NASD, DTC/NSCC or Other
Independent Third Parties in Order to Verify the
Trading Volume Purported by Madoff on Feeder
Funds’ Account Statements
        The OCIE staff prepared a draft letter to the NASD, dated
        December 17, 2003 in connection with the 2004 OCIE
        Cause Examination of Madoff, but the staff never sent the
        letter. Nor did the OCIE staff ever request trading data (e.g.,
        audit trail data) from another independent third party. The
        2005 NERO Cause Examination team did not make any
        attempt to reach out to an independent source for trading
        data in the course of their examination. Had the 2004 OCIE
        or the 2005 NERO Cause Examination teams approached
        independent third parties, they would have obtained detailed
        transaction data as well as securities position data for BMIS
        on a daily basis.

The National Association of Securities Dealers (“NASD”, now “FINRA”) was, and
still is, the largest independent regulator for all securities firms doing business in
the United States, including its former subsidiary, the National Association of
Securities Dealers Automated Quotations (“NASDAQ”) Stock Market, 11 during
the period of 2004 through 2006. Through NASDAQ, FINRA/NASD collects

11
  The NASDAQ Stock Market became an independent entity in January 2001 and registered as
an exchange in August 2006.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 24
detailed trading data from all market participants who are members of the NASD,
including BMIS, on a daily basis. 12

Additionally, National Securities Clearing Corporation (“NSCC”), a subsidiary of
the Depository Trust and Clearing Corporation (“DTCC”), provides clearing,
settlement and central counterparty services for virtually all broker-to-broker
trades involving equities, corporate and municipal debt and exchange-traded
funds, etc. As a result, NSCC also provides a cleared and settled trade database
on a daily basis. On the other hand, Depository Trust Corporation (“DTC”),
another subsidiary of DTCC, maintains records that show, on any particular day,
a market participant’s securities positions (equity, exchange-traded funds,
corporate debt and municipal debt, etc.). 13

Finally, the Options Clearing Corporation (“OCC”) collects trading data for all
cleared and settled option trades, including S&P 100 Stock Index (“OEX”)
options, by its member firms, such as BMIS.

During the planning stage of the examination, the 2004 OCIE Cause Examination
team had drafted a letter intended to request trading data related to BMIS directly
from FINRA/NASD, but the letter was never sent. The NERO examination team
did not make any effort to reach out to an independent source for trading data at
all. During both examinations, it does not appear that the NASD or any other
independent source, such as DTCC, was ever contacted in order to validate the
transactions provided by BMIS. The FTI Engagement Team believes had either
examination team approached FINRA/NASD, DTC/NSCC or OCC, detailed
transaction data as well as securities overnight position data could have been
obtained to challenge BMIS’ purported trading volume for both equities and
options.




12
   Specifically, the NASDAQ Automated Confirmation of Transactions (“ACT”) database.
Additionally, FINRA/NASD also established an Alternative Display Facility (“ADF”) for member
firms who choose to report to ADF instead of ACT.
13
   DTC provides securities movements for NSCC's net settlements, as well as settlement for
institutional trades, which typically involve money and securities transfers between custodian
banks and broker-dealers.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 25
Finding 12: Had the OCIE or the NERO
Examination Team Conducted a Trading Volume
Analysis Based on Third Parties’ Data, They
Would Have Uncovered a Significant Red Flag
That, With Further Inquiry, Would Likely Have Led
to Discovery of the Ponzi Scheme or, At the Very
Least, Madoff’s Fictitious Trades
        As a result of not requesting and obtaining data from third
        parties, validation of equity and options trading volume
        was never undertaken by either examination team during
        the 2004 OCIE Cause Examination or the 2005 NERO
        Cause Examination. Had the staff requested audit trail
        data and/or clearing and settlement information from third
        parties, it is likely that the examiners would have
        discovered that Madoff was not making the trades he
        claimed to be making.

OIG’s Report of Investigation dated August 31, 2009 demonstrates that at no
time did the two teams of the SEC examiners (2004 OCIE and 2005 NERO
Cause Examination teams) initiate a comprehensive analysis to verify the
trading volume of equity securities and OEX options as asserted by Madoff
and reflected in the feeder funds’ statements, despite receiving several tips
and complaints that raised suspicion about BMIS’ trading strategy and
returns. The FTI Engagement Team believes that had either examination
team conducted a detailed review of trading volume based on feeder fund
account statements produced by BMIS compared to third-parties’ transaction
data as well securities overnight position data, significant red flags would
have been raised that should have prompted further inquiry, and the follow-
up inquiry would likely have led to the discovery of the Ponzi scheme, or at
the very least, Madoff’s fictitious trading.

Summary of Received Tips in Regard to Trading Volume Issues
2004 OCIE Cause Examination. In late 2003, when OCIE was assembling a
team and preparing to conduct a cause exam of BMIS, the team possessed the
following information in regard to anomalies of professed trading activities
undertaken by BMIS:




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 26
     •   The Hedge Fund Manager’s Complaint received from a hedge fund
         manager indicated that the presumed OEX options volume done by
         Madoff could not be verified by the actual volume reported on the Chicago
         Board Options Exchange (“CBOE”) where, according to Madoff, those
         options should have traded;
     •   A May 2001 MAR/Hedge article entitled “Madoff tops charts: Skeptics ask
         How” described Madoff’s “related ability to buy and sell the underlying
         stocks without noticeably affecting the market,” even though his trading
         volume of those stocks should have been in the billions of dollars on a
         daily basis; and
     •   A Barron’s article entitled “Don’t Ask, Don’t Tell: Bernie Madoff is so
         secretive, he even asks his investors to keep mum,” published on May 5,
         2001, raised many of the same issues as in the MAR/Hedge article.

As the OIG Report of Investigation describes, the 2004 OCIE Cause Examination
team never requested trading and position data from a third-party source.
Consequently, the OCIE team did not examine the market impact of Madoff’s
alleged options trading, as specified in the Hedge Fund Manager’s Complaint
from the investment adviser, and did not verify or reconcile the related equity
trading volume. The examination team also did not take any measure to verify
whether or not Madoff was trading options on CBOE or on other options trading
venues including over the counter (“OTC”) market.

2005 NERO Cause Examination. In 2004, NERO possessed the following
information in regard to alleged abnormal trading activities undertaken by BMIS:

     •   The 2004 Complaint raised suspicion about Madoff’s equity trading stating
         the firm had “totally independent evidence that Madoff’s executions were
         highly unusual.” 14
     •   The 2004 Complaint raised suspicion about Madoff’s options trading
         strategy and concluded that Madoff could not be trading on an exchange
         because of insufficient volume and could not be trading options over the
         counter because it was inconceivable he could find sufficient
         counterparties for the quantity of trading necessary to implement the split-
         strike conversion strategy.
     •   The Mar/Hedge article and the Barron’s article from May 2001 were also
         available for the 2005 NERO Cause Examination team at the start of the
         examination process.

As the OIG’s Report of Investigation shows, the 2005 NERO Cause Examination
team did not attempt to substantiate Madoff’s equity trading volume or the

14
  The firm that provided the 2004 Complaint had done an analysis of Madoff’s fills, or trade
execution prices. The firm’s employees who analyzed the fills concluded that it was highly
unlikely that Madoff’s executions could be legitimate.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 27
options trading volume. In fact, Madoff’s options trading was not a focus of the
examination at all after Madoff told the team that he was no longer using options
as part of his strategy. There is no evidence that the NERO team ever
considered contacting the NASD or the DTCC for third-party trading data.

Trading Data and Markets

The FTI Engagement Team replicated the 2004 OCIE Cause Examination data
request to NASD (now FINRA) as if OCIE’s draft letter, which was never sent,
had in fact gone to NASD; however, we limited the time period of the request to
March 10 – 15, 2005 and the range of the request to selected securities to
coincide with dates and securities shown on account statements provided to
BMIS feeder funds found in OCIE workpapers. Furthermore, the FTI
Engagement Team also obtained trading data from NSCC for the same time
period of 2005 and securities position data from the Depository Trust Corporation
(“DTC”).

The FTI Engagement Team compared BMIS’ reported equity trading volumes
from a sample of feeder fund account statements to BMIS’ trade reporting
records submitted to the NASD, as well as BMIS’ trade clearing and settlement
records provided by the NSCC. 15 In addition, the FTI Engagement team
compared BMIS’ securities position data provided by DTC for January 2005 to
overnight securities holdings shown in BMIS account statements for its feeder
fund client.

The FTI Engagement Team’s analysis showed the following: 16

     •   An analysis performed using data from the NASD/FINRA, NSCC and/or
         DTC would have likely resulted in uncovering during the examinations
         that Madoff was misrepresenting his trading.

     •   The FTI Engagement Team’s analysis shows that, for one feeder fund
         manager alone, Kingate Management, Ltd. (“Kingate”), purported trading
         volume in U.S. markets for selected securities shown on BMIS statements
         significantly exceeded actual trading volume by BMIS in those securities,
         according to NASDAQ Automated Confirmation of Transactions (“ACT”)
         data provided by FINRA. In fact, the feeder fund’s volume surpassed the
         ACT volume for every single stock on every single trading day which the
15
   The FTI Engagement Team selected a sample of 14 stocks out of the total 44 stocks professed
to be traded by Madoff for Kingate from March 10 through March 15, 2005.
16
   Appendix VI provides a more an in depth description of the FTI Engagement Team’s trading
volume analysis, including databases, procedures, methodologies as well as a detailed
breakdown of total volume calculated for each stock on each trading day during March 2005
which is based on the records in Kingate and Fairfield’s account statements, NASDAQ ACT,
FINRA OATS, NSCC and DTC databases.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 28
         FTI Engagement Team has investigated by a factor ranging from two to
         as much as 12. 17 Moreover, Madoff eventually claimed to have executed
         trades for “closer to 15” feeder funds; therefore, the discrepancies of
         volume would have been even more significant had other feeder funds’
         purported volume been factored into this analysis. The FTI Engagement
         Team concluded that had the examiners done a similar analysis, the
         disparity in US trading volume would have been uncovered during their
         examinations.

     •   The FTI Engagement Team also compared the same trading volume as
         recorded in the feeders fund’s account statements to the volume cleared
         and settled by NSCC on behalf of Madoff during the same period. Similar
         to the results using the data from FINRA, purported trading volume for the
         feeder fund significantly exceeded actual trading volume by BMIS in those
         securities, as cleared by NSCC. Likewise, had the FTI Engagement
         Team included other feeder funds’ purported trading volume, as well as
         deducted BMIS’ actual market making volume from the NSCC cleared
         volume, the divergence of volume would be even more obvious and
         substantial. 18

     •   Finally, the FTI Engagement Team also compared BMIS’ securities
         position holdings as reported by DTC to the overnight equity position of
         one of the feeder funds, Fairfield Sentry, Ltd. (“Fairfield”), based on a
         sample of trade confirmations issued by BMIS to the feeder fund. Based
         on the FTI Engagement Team’s research, BMIS did not hold billions of
         dollars of S&P 100 equities for Fairfield, as listed on the account
         statements. For example, on January 26, 2005, DTC records showed
         that the BMIS account held a total of 90,200 shares of 14 S&P 100
         equities in the DTC account. 19 However, the trade confirmation
         statements produced by BMIS for the feeder fund show total holdings of
         35,682,300 shares for those same 14 stocks as of January 26, 2005,
         which exceeded the shares recorded in DTC by a factor of almost 400.


17
   For example, on March 14, 2005, Kingate’s two fund statements show a total buy and sell
trading volume of 1,643,600 shares for Oracle Corporation (“ORCL”), while the reported volume
submitted to ACT by BMIS was only about 136,850 shares. For that date, then, Kingate’s
recorded volume was 12 times as large as the NASDAQ reported volume.
18
   Data relating to trades reported by BMIS to NASDAQ ACT or NSCC would be available only to
the SEC, FINRA, NASDAQ and DTCC. Absent any specific legal authority, neither the BMIS
feeder funds, nor their advisors and auditors, would have had access to the trade execution data
needed to prepare an analysis similar to that which the FTI Engagement Team performed for this
report.
19
   Most of the shares held by BMIS at DTC were likely related to BMIS market-making positions
only. The FTI Engagement Team concluded that the DTC records would have included
additional shares held by Madoff for its investors had Madoff conducted genuine trades in U.S.
markets for those investors because Madoff was acting as their custodian.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 29
     •   Even if Madoff represented to NERO examiners that BMIS executed
         trades for institutional clients in Europe before the U.S. markets were
         open, the examiners should have been prompted to pursue additional
         information on Madoff’s claimed European trade executions because, on
         its face, such a representation raised serious red flags. The after-hours
         markets for US stocks traded in both U.S. and Europe were viewed as
         illiquid. 20 It was not likely that BMIS would transact several hundred
         thousand shares of volume for each individual stock on each day, as it
         purported to do for its investment adviser accounts, between 4:00 am and
         8:00 am on a European exchange when the market for this time period is
         viewed by the industry as illiquid. With the knowledge that the European
         market for U.S. equities was so limited, the examiners would have had a
         solid indicator to pursue information from European regulators, and, in
         turn, investigate other issues such as custody and existence of client
         securities. Had the examination team possessed a basic understanding
         of the interactions between the U.S. and European markets, they likely
         would have reached this conclusion.

U.S. Treasury Holdings. In addition to equity positions, Fairfield’s trade
confirmations also purported to carry large U.S. Treasury debt positions
overnight. In fact, on some days, Fairfield’s entire portfolio was supposed to
have been invested in US Treasury bills. US Treasury bills, though, could be
held in both US and foreign depository institutions, making it difficult to obtain a
definitive total of all holdings for a given broker-dealer such as BMIS. While
OCIE examiners could have made inquires of US and foreign depository
institutions, the examiners may have been dependent upon the cooperation of
entities not under SEC supervision, lowering the likelihood of successfully
reaching a conclusion.

Options Trading. The FTI Engagement Team was not able to verify options
trading volumes due to incomplete data. In fact, the 2005 account statements
produced by BMIS to two of its feeder fund clients did not show any trading in
S&P 100 stock index (“OEX”) options or other options. 21 The FTI Engagement
Team has verified that BMIS was a member of the Options Clearing Corporation
(“OCC”) 22 and also a member of Pacific Stock Exchange, which is known for its
electronic options trading platform, during the period from 2004 – 2005. 23
Therefore, the SEC examination teams could have requested options trading
data directly from OCC or the options exchanges in regard to BMIS’ purported


20
   See “After-Hours Trading: Understanding the Risks”
http://www.sec.gov/investor/pubs/afterhours.htm.
21
   However, we do have Fairfield trade confirmations that showed trading of OEX options in 2005.
22
   Members of OCC would have to have reported all exchange-listed option trades (including
OEX trades) to OCC for clearing and settlement purposes.
23
   See BMIS FOCUS Reports for 2004 and 2005, Schedule I, filed with FINRA.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 30
trading activities in OEX options. 24 As a result, it is likely that the OEX options’
trading volume fabricated by Madoff could have been exposed once an analysis
of options’ trading volume was accomplished.

As the above demonstrates, the FTI Engagement Team has concluded that there
were several methods for the SEC examiners to verify BMIS purported trading
volume with several different independent third-parties. Reaching out to any of
these third-parties would have revealed discrepancies between Madoff’s
representations concerning his trading volume and reality. Had the SEC
examiners undertaken any of the volume or position analyses discussed above,
they would have uncovered a significant red flag that, with further inquiry, would
likely have led to discovery of the Ponzi scheme or, at the very least, Madoff’s
fictitious trading volume. 25

Recommendation 28:

The Office of Compliance Inspections and Examinations examination staff should
be required to verify a test sample of trading or balance data with counterparties
and other independent third parties such as Financial Industry Regulatory
Authority, Depository Trust Company, or National Securities Clearing Corporation
whenever there are specific allegations of fraud involved in an examination.

Recommendation 29:

The Office of Compliance Inspections and Examinations (“OCIE”) examiners
should be trained jointly with the Office of Economic Analysis economists by
FINRA, other self-regulatory organizations and exchange staff in understanding
the trading databases provided by the Financial Industry Regulatory Authority,
The NASDAQ OMX Group, Inc., the New York Stock Exchange/Archipelago
Holdings, Inc./American Stock Exchange, regional exchanges, Options Clearing
24
   A listed option such as OEX options could not have been traded solely over-the-counter and
not reported to any regulated entities such as OCC or option exchanges. A broker-dealer could
only trade a non-listed option over-the-counter. However, it is possible that a non-listed option
that mimics OEX options with similar characteristics (e.g., a similar stock mix with volatility
proximity) could be traded exclusively over-the-counter, although this scenario would be
inconsistent with Madoff’s previous statements that he was trading OEX options only.
25
   To minimize the resources required by OCIE to analyze trade data provided by FINRA
(NASDAQ ACT and OATS databases), the FTI Engagement Team suggests that FINRA invest
time and technical personnel to build the following two new databases based on the existing raw
data: 1) a new database that would combine all OATS tables (order entry, routing, execution,
cancellation, modification, etc.) into one “super” table so that examiners could easily understand
the life cycle of a customer order submitted to a market participant; and 2) a “cleaned-up” version
of a “super” ACT trade database that would eliminate the redundancies of tape-reported records
and clearing records. FINRA should make the new databases available for request by the SEC
(especially OCIE and OEA). Because this suggestion is directed at FINRA, not the SEC, the FTI
Engagement Team is not including it as a formal recommendation, but wishes to bring it to the
SEC’s attention.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 31
Corporation, option exchanges, and Depository Trust Clearing
Corporation/National Securities Clearing Corporation, etc. As trading and trading
venues change over time, the OCIE training should be recurring and updated.

Recommendation 30:

The Office of Compliance Inspections and Examinations staff should be given
direct access to certain databases maintained by self-regulatory organizations or
other similar agencies in order to allow examiners to access necessary data for
verification or analysis of registrant data. Such databases should include
exchange trading execution data, Depository Trust Company / National
Securities Clearing Corporation data, the Financial Industry Regulatory Authority
(“FINRA”) Order Audit Trail System and the FINRA Central Registration
Depository.

Finding 13: OCIE Did Not Adequately Track the
Progress of its Cause Examination of BMIS
        OCIE did not adequately track the progress of its 2004
        OCIE Cause Examination of BMIS. OCIE team members
        were pulled from the project and never returned to work
        on the cause examination even though it was never
        completed.

The 2004 OCIE Cause Examination never reached a formal conclusion as
the examination team was diverted to address another priority. The OCIE
examiners were told by their supervisors to focus on a mutual fund revenue
sharing sweep being conducted by OCIE. The examination team did not
draft a closing report of the BMIS cause examination, and when the mutual
fund revenue-sharing project was completed, the 2004 OCIE Cause
Examination of Madoff did not resume.

A senior OCIE manager indicated that one particular individual was
responsible for keeping track of open examinations. However, this individual
testified that although she maintained a spreadsheet that listed ongoing
projects, she did not have the responsibility for monitoring whether
examinations were completed and that the responsibility for ensuring that an
examination was completed fell to the branch chief, the assistant director
and the associate director in charge of the project.

According to the letters dated June 5, 2009 and July 1, 2009 from OCIE to
OIG, in late 2003 and 2004, Market Oversight was particularly busy with a
number of high-profile sweep examinations that required significant staffing

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 32
resources. As a result, other projects, including the 2004 OCIE Cause
Examination of BMIS, suffered considerable delays.

As a result of the failure by OCIE to reach a formal conclusion and
adequately trace the progress of the cause examination, the examination
work conducted by the 2004 OCIE Cause Examination team was rendered
useless.

Recommendation 31:

When an examination team is pulled off the examination for a project of
higher priority, upon completion of that project, the examination team should
return to their examination and bring the examination to a conclusion.

Recommendation 32:

One person in The Office of Compliance Inspections and Examinations
(“OCIE”) should be responsible for tracking the progress of all cause
examinations, and the tracking should include the number of cause
examinations opened, the number on-going and the number closed for each
month. Such data should be reported at least quarterly to the OCIE Director
and to the Securities and Exchange Commission (“SEC”) Chairman. Any
cause examinations open for more than 180 days should be reported to the
OCIE Director and the SEC Chairman with an explanation as to why the
examination requires more time.


Finding 14: OCIE Did Not Prepare a Closing
Report That Resolved the Allegations from the
Hedge Fund Manager’s Complaint and Identified
Any Substantive Open Issues Discovered During
the Examination
        The 2004 OCIE Cause Examination team did not prepare
        a closing report that resolved the allegations from the
        Hedge Fund Manager’s Complaint and identified any
        substantive open issues discovered during the
        examination.

Had the 2004 OCIE Cause Examination been brought to a conclusion,
presumably the examination team would have determined there was no
front-running, but other issues remained. Senior OCIE managers have
Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 33
indicated that if they were doing the examination and did not find front-
running, then they likely would have continued the examination, including a
validation of investment performance and a review of the custody
arrangements.

Although OCIE had begun drafting a memorandum to the Division of Market
Regulation (now the Division of Trading & Markets) addressing whether or
not BMIS should had been registered as an investment adviser, that
memorandum was never finalized.

The failure to adequately address and resolve these issues can be linked to
the overly narrow initial scope of the 2004 OCIE Cause Examination that
focused on front-running. That scope was not modified to reflect the detailed
Hedge Fund Manager’s Complaint received by OCIE, even though members
of the examination team talked with the individual that provided the tip
shortly after the Planning Memorandum was drafted, nor was the scope
adjusted to include the issue of investment adviser registration.

OCIE Office of Market Oversight’s Document Policies and Procedures dated
November 27, 2007 suggested that a closing memorandum “should” be
completed for every project. However, a letter dated June 5, 2009 from OCIE to
the OIG stated, “[o]nce an examination is completed, the [Market Oversight]
Guidelines require that each examination or inspection have a final closing report
or memorandum.” Furthermore, OCIE’s Examination Program Manual for
Organization of Examination Workpapers dated July 8, 2008 suggested that final
examination/inspection reports may, but not necessarily must, be retained in
examination files. OCIE’s Standard Report Format dated December 4, 2008
described the minimum content and format for examination reports, when
prepared.

The above demonstrates the conflicting policies and procedures in effect. In
addition, the failure to document conclusions from the 2004 OCIE Cause
Examination demonstrates the importance of clarifying that closing reports
must be prepared at the conclusion of each examination.

Recommendation 33:

The Office of Compliance Inspections and Examinations’ policies and
procedures should clearly indicate that at the conclusion of each
examination, the examination team must prepare a closing report (“Closing
Memorandum”) that begins with the scope discussion from the Planning
Memorandum, as modified by new issues that arise during the course of the
examination. For each and every issue discussed in the scoping discussion
in the Planning Memorandum, the Closing Memorandum should provide

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 34
findings relevant to each issue and state the team’s conclusions. All
members of the examination team should sign the Closing Memorandum.


Finding 15: The NERO Examination Team Closed
the Examination Despite A Number of Open
Issues
        The 2005 NERO Cause Examination team closed the
        cause examination of BMIS despite a number of open
        issues including whether BMIS should have been
        registered as an investment adviser, the role of the BMIS
        London affiliate and how Madoff was able to generate the
        returns once NERO determined he was not front-running.

On June 2, 2005, a conclusion was reached by a NERO examiner that
Madoff was not front-running his market-making customers in order to
benefit his investment advisory clients. The examiner also noted that
Madoff’s “purchase & subsequent sale timing was excellent (buy low & sell
high).” Although no analysis had been conducted, the examiner suspected
that Madoff was “extremely well connected to European order flow
information through his brokers (and possibly the investors in his fund) and is
timing the market based upon that information rather than his retail order
flow information.” The examiners’ supervisor later stated that “we never
found [out] why he was making those returns” and also indicated that he
could not rule out the possibility that Madoff was doing something else
illegally to achieve those returns.

The 2005 NERO Cause Examination team spent several months reviewing
documents and interviewing Madoff directly with regard to his split-strike
conversion strategy but was still unable to understand how he was achieving
his returns. Even though there were significant “red flags” outlined in both
the 2004 Complaint that triggered the examination and the news articles, the
2005 NERO Cause Examination team never reached a resolution on the
many issues concerning Madoff’s returns.

OCIE’s Examination Program Manual for Organization of Examination
Workpapers dated July 8, 2008 indicates that workpapers should include a list of
any unresolved issues that should be prepared and given to the branch chief or
team leader for review and disposition prior to closing the
examination/inspection.



Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 35
Resolving issues provided in a complaint or uncovered during the course of a
cause examination is critical to the conduct of a comprehensive examination.

Recommendation 34:

Examination staff should not leave open any substantive issue without
providing a sufficient basis for such a determination or a plan to pursue that
issue at an appropriate later time. In the event that issues are unresolved or
cannot be pursued further, examination staff should formerly refer those
issues to the appropriate Securities and Exchange Commission staff that
may further investigate and resolve such issues.

Finding 16: The NERO Examination Team
Believed They Might Be Subjected To Legal
Liability If They Contacted The Feeder Funds
        The 2004 NERO Cause Examination team believed they might be
        subjected to legal liability if they contacted the feeder funds. There was
        belief within the examination team that they might be sued if they
        contacted the feeder funds and those funds subsequently pulled their
        money out of BMIS.

In mid-June 2005, the Northeast Regional Office examiners indicated to their
supervisor that they were interested in visiting Madoff’s feeder funds in order to
better gain an understanding of the strategy used by Madoff, to request
marketing materials from the funds and to compare performance data of the
funds. The supervisor told the examiners that they should not contact the funds,
apparently due in part to his fear that they would be sued. One of the examiners
believed that his supervisor was concerned about “potentially being liable if the
hedge funds turned around and pulled their assets from Bernard Madoff.”

Recommendation 35:

The Office of Compliance Inspections and Examinations (“OCIE”) training
should include instruction on personal liability, if any, assumed on the part of
examiners for their actions in the course of performing their duties for OCIE.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 36
Recommendation 36:

Office of Compliance Inspections and Examinations (“OCIE”) management
should make clear that it will support OCIE examiners in their pursuit of
evidence in the course of an examination, even if pursuing that evidence
requires contacting customers or clients of the target of that examination.

Finding 17: The Examinations Did Not Adequately
Look Into the Allegations of the Auditor’s Lack of
Independence or Refer Such Allegations To the
Appropriate Agency
        Both the 2004 OCIE and the 2005 NERO Cause Examinations did not
        adequately look into the allegations of the auditor’s lack of independence
        or refer such allegations to the appropriate agency.

Despite concerns raised in the complaints, both the 2004 OCIE and the 2005
NERO Cause Examinations did not look into the allegations of the auditor’s
lack of independence to determine if there was a conflict of interest. The
lack of an independent auditor raises potential concerns with regard to safety
of custody of assets. Without an independent auditor, there can be no
assurance that the audits of BMIS were properly conducted. Such potential
conflicts should heighten awareness of, and the need for, verification that
BMIS had internal controls in place that are designed to effectively prevent
certain inappropriate activities, such as misrepresentation of trading activity
and the misappropriation of client assets. The examination teams could
have confirmed whether the accountant verified, by actual examination,
client funds and securities held by BMIS, since BMIS did not utilize an
independent custodian. Based on the information provided in the Hedge
Fund Manager’s Complaint and the 2004 Complaint, such inquiries should
have been considered as an area for review during the cause examinations.

Lori Richards indicated in a June 17, 2009 speech at a SIFMA conference
and in a letter dated July 1, 2009 to David Kotz that in the wake of Madoff
and other frauds, OCIE is making changes to examination procedures.
Among other things, these changes will include a more routine process with
regard to contacting a firm’s independent auditor in order to understand the
nature of its audit and determine whether the auditor confirmed or verified
that assets held on behalf of customers actually exist.

Procedures must be put into place to ensure that serious questions about an
auditor’s independence are investigated and examined.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 37
Recommendation 37:

When an auditor’s independence is questioned in a tip or complaint, the Office of
Compliance Inspections and Examinations should report the information, if
deemed credible, to the appropriate state board of accountancy and to the Public
Company Accounting Oversight Board, if applicable, in addition to considering a
referral to the Securities and Exchange Commission’s Enforcement Division or
other government agency.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 38
                                                                                    Appendix I


                                        Acronyms

ACT                          Automated Confirmation of Transactions
ADF                          Alternative Display Facility
Adviser Act                  Investment Adviser Act of 1940
AMEX                         American Stock Exchange
ARCA                         Archipelago Holdings, Inc.
BD                           Broker Dealer
BMIS                         Bernard L. Madoff Investment Securities LLC
CBOE                         Chicago Board Options Exchange
Company Act                  Investment Company Act of 1940
CRD                          Central Registration Depository
DTC                          Depository Trust Company
DTCC                         Depository Trust & Clearing Corporation
ECN                          Electronic Communication Network
Enforcement                  Division of Enforcement
Exchange Act                 Securities Exchange Act of 1934
Fairfield                    Fairfield Sentry
FINRA                        Financial Industry Regulatory Authority (formerly NASD)
FSA                          Financial Services Authority (United Kingdom)
FTI                          FTI Consulting, Inc.
IA                           Investment Adviser
IC                           Investment Company
IA/IC                        Investment Adviser/Investment Company
Kingate                      Kingate Global Fund
LSE                          London Stock Exchange
Madoff                       Bernard L. Madoff
Market Regulation            Division of Market Regulation (now Trading & Markets)
NASAA                        North American Securities Administrators Association
NASD                         National Association of Securities Dealers (now FINRA)
NASDAQ                       National Association of Securities Dealers Automated
                                 Quotations/ Nasdaq Stock Market
NERO                         Northeast Regional Office (now NYRO)
NSCC                         National Securities Clearing Corporation
NYRO                         New York Regional Office (formerly NERO)
NYSE                         New York Stock Exchange
OATS                         Order Audit Trail System
OCC                          Options Clearing Corporation
OCIE                         Office of Compliance Inspections and Examinations
OEA                          Office of Economic Analysis
OEX                          S&P 100 Stock Index
OIA                          Office of International Affairs
OIEA                         Office of Investor Education and Advocacy
OIG                          Office of Inspector General
OMI                          Office of Market Intelligence
OMX                          The NASDAQ OMX Group, Inc.
ORA                          Office of Risk Assessment

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 39
                                                                                    Appendix I

OTC                          Over the Counter
SEC/Commission               U.S. Securities and Exchange Commission
SIAC                         Securities Information Automation Corporation
SRO                          Self-Regulatory Organization
SRO/Market Oversight         Office of Market Oversight
STARS                        Super Tracking and Reporting System
Trading & Markets            Division of Trading & Markets (formerly Market Regulation)




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 40
                                                                                   Appendix II


                          Scope and Methodology
Scope. The FTI Engagement Team’s review of OCIE’s examinations of BMIS
included the following areas:

    •    OCIE’s identification of red flags, improper conduct and illegal practices of
         BMIS and the ability of OCIE management to evaluate these issues and
         assign the appropriate SEC staff;
    •    OCIE’s methodology, timeliness and effectiveness in initiating and
         performing “cause” examinations;
    •    OCIE’s assessment of an entity’s internal controls and compliance with
         regulations and securities laws;
    •    OCIE’s procedures for documentation of its workpapers;
    •    OCIE’s confirmation or verification of an entity’s trading activity and
         customer account balances;
    •    OCIE’s supervisory oversight of the examination staff;
    •    OCIE’s coordination between the examination staff and other personnel in
         the various offices of SEC/OCIE;
    •    Adequacy of staffing and resources at OCIE to support effective and
         efficient examinations; and
    •    Other relevant aspects of the OCIE examinations of BMIS.

Methodology. This review was not conducted in accordance with the
government auditing standards. The FTI Engagement Team’s fieldwork in
connection with this review began on July 6, 2009 during the in-person entrance
interview of Lori Richards and John Walsh in Washington, D.C. The FTI
Engagement Team reviewed the OIG’s August 31, 2009 Report of Investigation,
including related findings, exhibits, witness testimony and other supporting
documentation (i.e., OCIE examination staff workpapers), and the FTI
Engagement Team also interviewed over a dozen key personnel representing
OCIE’s broker-dealer, investment adviser and risk assessment programs. In
addition, the FTI Engagement Team reviewed OCIE’s policies and procedures
with regard to its examination processes and other third-party records including
Financial Industry Regulatory Authority (“FINRA”) order and execution data,
Depository Trust Corporation (“DTC”) records and National Securities Clearing
Corporation (“NSCC”) records. The FTI Engagement Team also was granted
access to OCIE’s various intranet sites, including the Broker-Dealer, Investment
Advisor/Investment Company, Office of Market Oversight, and Training Branch
sites, in order to view its examination policies and procedures. The FTI
Engagement Team performed its findings and recommendations review from
June 25, 2009 through August 28, 2009.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 41
                                                                                  Appendix III


                         List of Recommendations

Recommendation 1:

The Office of Compliance Inspections and Examinations (“OCIE”) should provide
all examiners access to relevant industry publications (i.e., MAR/Hedge-type
publications) and third-party database subscriptions sufficient to develop
examination leads and stay current with industry trends. OCIE should regularly
(i.e., quarterly) assess whether they have adequate access to relevant industry
publications and other such sources (newsletters, independent subscription-type
news alerts, etc.) and make reasonable attempts to gain such access.

Recommendation 2:

The Office of Compliance Inspections and Examinations should establish a
protocol for searching and screening news articles and information from relevant
industry sources that may indicate securities law violations at broker-dealers and
investment-advisers. The protocol should include flexible searching capability to
help identify specific areas of risk or concern and should include access to all
relevant industry publications. The protocol should also include adequate
screening criteria to eliminate unnecessary results and/or to more narrowly
define a search in order to generate sufficient results. The screening criteria and
any changes should be documented and the protocol should be re-assessed
regularly (i.e., quarterly) in order to determine if any modifications are
appropriate.

Recommendation 3:

The Office of Compliance Inspections and Examinations (“OCIE”) should
establish a protocol that explains how to identify red flags and potential violations
of securities law based on an evaluation of information found in news reports and
relevant industry sources. The protocol should also determine how decisions on
whether to initiate cause examinations are made and by whom, set a reasonable
time frame for evaluation (i.e., 90 days) of the search results and provide
notification to OCIE management when such time has expired.

Recommendation 4:

In accordance with the findings of the Center for Enterprise Modernization project
and prior to its completion, the Office of Compliance Inspections and
Examinations (“OCIE”) should implement an OCIE-related collection system that
adequately captures information relating to the nature and source of each tip or
complaint and also chronicles the vetting process to document why each tip or
Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 42
                                                                                  Appendix III

complaint was or was not acted upon and who made that determination. All
OCIE examiners should be given access to the system in order to be able to
timely view and monitor tips and complaints that may be relevant to examinations
they are preparing to conduct or are actively conducting. In addition, OCIE
examiners should be given adequate access to tips and complaints received by
the newly-created Office of Market Intelligence and other relevant sources such
as the Office of Investor Education and Advocacy.

Recommendation 5:

The Office of Compliance Inspections and Examinations (“OCIE”) should
annually review and test the effectiveness of its policies and procedures with
regard to its tip and complaint collection system. OCIE should also modify these
policies and procedures, where needed.

Recommendation 6:

Tips and complaints reviewed by the Office of Compliance Inspections and
Examinations that appear on the surface to be credible and compelling
should be probed further by in-depth interviews with the sources to assess
their validity and to determine if there are other issues that need to be
investigated. Any apparent contradictions in tip or complaint information
need to be resolved as early as possible in the examination process through
interviews with appropriate sources or further independent research.
Findings from such interviews should be adequately documented and should
be required reading for examination team members.

Recommendation 7:

All Office of Compliance Inspections and Examinations (“OCIE”)-related tips
and/or complaints that are not vetted within 30 days of receipt should be brought
to the attention of the OCIE Director with an explanation for the delay. All OCIE-
related tips and/or complaints that merit a cause examination for which that
examination does not begin within 60 days of receipt (a “Post-60 Day
Examination”) must be reported to the OCIE Director with a monthly tally of yet-
to-be-opened Post-60 Day Examinations sent to the Securities and Exchange
Commission Chairman.

Recommendation 8:

All potentially relevant information received by the Office of Compliance
Inspections and Examinations from a tip or complaint source should be
preserved as a complete unit and should be augmented with relevant information
that may have been provided in subsequent submissions by that source. Once

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 43
                                                                                  Appendix III

an examination has been initiated, such information should be required reading
for examination team members.

Recommendation 9:

The Office of Compliance Inspections and Examinations (“OCIE”) should
augment its policies and procedures related to the use of scope memoranda to
better reflect particular consideration given to information collected as the result
of tips and complaints that lead to cause examinations. When all potentially
relevant tip and complaint source data, background information and research
have been collected into one complete unit (see Recommendation 8),
examination staff should identify all relevant potential securities law violations
and other concerns and then prepare a planning memorandum that ties each and
every potential violation and issue into the scoping discussion in the
memorandum. The Planning Memorandum should include the basic steps that
need to be taken in order to address the issues identified in the scope
discussion. The Planning Memorandum should be reviewed, approved and
signed (or initialed) by senior OCIE management (i.e., assistant director level or
higher) and should include the names of the individuals who prepared and
reviewed the document.

Recommendation 10:

The Office of Compliance Inspections and Examinations (“OCIE”) should timely
modify or append the scope memorandum when significant new facts and issues
emerge. The modified or supplemental scoping memorandum should be
reviewed, approved and signed (or initialed) by senior OCIE management (i.e.,
assistant director level or higher) and should include the names of the individuals
who prepared and reviewed the document.

Recommendation 11:

After examination scoping provisions have been approved, along with all other
elements of the Planning Memorandum, the Planning Memorandum should be
subjected to concurring review by an unaffiliated Office of Compliance
Inspections and Examinations (“OCIE”) associate or assistant director
(“Concurring Director Review”), and the person performing the Concurring
Director Review should also recommend additional concurring reviews from the
Commission’s Office of Economic Analysis, Office of Chief Accountant or other
offices or divisions of the Commission as needed. All concurring reviewers
should sign off on the Planning Memorandum indicating their approval and add
any comments on the proposed scope or other areas discussed in the
memorandum.



Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 44
                                                                                  Appendix III


Recommendation 12:

After the Planning Memorandum is first drafted, it should be circulated to all
examination team members, and all team members should then meet, in person
or electronically, to discuss the examination approach and methodology set out
in the memorandum, as well as any other issues the team members wish to
raise.

Recommendation 13:

The examination team leader should ensure that all steps of the examination
methodology, as stated in the Planning Memorandum, are completed and either
the team leader or the appropriate team member should sign off on each step as
it is completed.

Recommendation 14:

Substantive interviews conducted by the Office of Compliance Inspections and
Examinations (“OCIE”) of registrants and third-parties during OCIE’s pre-
examination activities and during the course of an active examination should be
documented with notes circulated to all team members. After each substantive
interview during the examination, the team leader should re-evaluate the
examination scope and methodology as set out in the Planning Memorandum to
determine if the examination needs to be expanded and indicate by initialing the
interview notes that the team leader has performed that evaluation.

Recommendation 15:

The workpapers for a given examination should be in sufficient detail to provide a
clear understanding of its purpose, source, and the conclusions reached. Also,
the documentation should be appropriately organized to provide a clear link to
the significant findings or issues. 26

Recommendation 16:

When logging all Office of Compliance Inspections and Examinations
examinations into an examination tracking system, the team leader should verify
that the appropriate entry is made into the tracking system and, with a notation in

26
  This requirement for work paper documentation is taken from the objectives of audit work paper
documentation for public company audits adopted by the Public Company Accounting Oversight
Board as expressed on paragraph 4 of Auditing Standard 3:
        Audit documentation should be prepared in sufficient detail to provide a clear
        understanding of its purpose, source, and the conclusions reached. Also, the
        documentation should be appropriately organized to provide a clear link to the
        significant findings or issues. [Footnote omitted.]

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 45
                                                                                  Appendix III

the Planning Memorandum, indicate that such entry has been made with the
team leader’s initials.

Recommendation 17:

The Office of Compliance Inspections and Examinations should annually review
and test the effectiveness of its policies and procedures with regard to
conducting, documenting and concluding its examinations 27 and modify the
policies and procedures, where needed.

Recommendation 18:

The focus of an examination should drive the selection of the examination team
and team members should be selected based upon their expertise related to
such focus. There should also be a clearly defined examination team leader.
Staffing decisions should be made by senior Office of Compliance Inspections
and Examinations management (assistant director level or higher) after
management has performed adequate pre-examination preparation so that
management can make appropriate choices. The examination team should not
be selected solely based on availability.

Recommendation 19:

Senior Office of Compliance Inspections and Examinations (“OCIE”)
management should ensure that personnel with the appropriate skills and
expertise are assigned to cause examinations with unique or discrete needs (i.e.,
options expertise). OCIE should regularly seek out the appropriate expertise
from other offices or divisions within the SEC and encourage intra-agency
collaboration wherever possible.

Recommendation 20:

The Office of Compliance Inspections and Examinations should assign a Branch
Chief, or a similarly designated lead manager, on every substantive project
including all cause examinations. The Branch Chief or designated lead manager
must be onsite or in direct communication with the onsite staff daily during the
onsite portion of the examinations. Lower lever or junior staff examiners must
not be left unsupervised during substantive discussions with principals or senior
executives at the registrant during the examination.

27
  Similarly, investment firms are required to develop and implement policies and procedures
designed to guide their securities activities and detect and prevent violative conduct. Broker
Dealer policies and procedures must be reviewed for adequacy on an annual basis – see FINRA
Rule 3130(b). Investment advisers must conduct an annual review of their policies and
procedures – see Investment Advisers Act of 1940 Rule 206(4)-7(b).

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 46
                                                                                  Appendix III


Recommendation 21:

The Office of Compliance Inspections and Examinations (“OCIE”) should develop
a formal plan with specific goals associated with achieving and maintaining
professional designations and/or licenses by industry certification programs that
are relevant to the examination activities conducted by OCIE. For instance,
within the next three years, 50% of OCIE staff and management associated with
examination activities should be qualified by means of a certification applicable to
their profession such as the Association of Certified Fraud Examiners’ Certified
Fraud Examiner designation, the American Institute of Certified Public
Accountants’ Certified in Financial Forensics designation and/or the FINRA
General Securities Principal license required of investment professionals. 28
These should include an annual continuing education component for each of
these licenses.

Recommendation 22:

The Office of Compliance Inspections and Examinations (“OCIE”) should develop
and implement interactive exercises to be administered by OCIE training staff or
an independent third party and reviewed prior to hiring new OCIE employees in
order to evaluate the relevant skills necessary to perform examinations. Similar
exercises should be annually administered to all active examination staff and
management in order to identify areas that need further development.

Recommendation 23:

Subject to approval of the examination team leader, Office of Compliance
Inspections and Examinations (“OCIE”) examiners should contact clients of a BD
or IA when necessary to confirm statements made by BD or IA personnel.
Examiners should be encouraged to verify representations of third parties by
contacting such parties, and appropriate methods used to contact third parties
should become a part of OCIE’s training of examiners.

Recommendation 24:

In the course of an examination, if an examiner becomes aware of a potential
securities law violation at another firm, that examiner should consult with the


28
   The investment firms that OCIE examines are required to have their professionals qualified by
exam to perform securities investment activities. OCIE professionals should have a similar
requirement in order to review and examine those activities. The FINRA General Securities
license consists of the Series 7 and 24 courses covering the sales of securities and the
supervision of such sales. The study materials are readily available from several providers. While
OCIE examiners may not be able to sit for certain exams and obtain certain licenses due to their
status as government employees, they are still able to obtain and study the course materials.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 47
                                                                                  Appendix III

team leader and the Office of Compliance Inspections and Examinations should
make a referral to the appropriate personnel or agency.

Recommendation 25:

The Office of Compliance Inspections and Examinations examiners should be
trained in the mechanics of securities settlement, both in the U.S. and in major
foreign markets.

Recommendation 26:

The Office of Compliance Inspections and Examinations (“OCIE”) examiners
should be trained by the Office of International Affairs (“OIA”) in methods to
access the expertise of foreign regulators, such as the United Kingdom’s
Financial Services Authority, as well as foreign securities exchanges and foreign
clearing and settlement entities. OCIE examiners should also be trained by OIA
in methods to request and receive information pursuant to SEC Memoranda of
Understanding with those foreign regulators. OCIE in conjunction with OIA
should develop templates for the most frequent types of requests (i.e., sample
trade data) from foreign regulators based on past experience in order to facilitate
the process. OCIE in conjunction with OIA should develop and utilize contact
lists with such regulators for use by appropriate examination staff.

Recommendation 27:

For significant issues such as whether trades have been executed and who has
custody of assets, in the absence of third party (counterparties, custodians, etc.)
documentation, the Office of Compliance Inspections and Examinations (“OCIE”)
examiners should not simply rely on representations of BD or IA personnel but
should contact third parties directly. OCIE should provide guidance or training
that clarifies for examiners circumstances that require such contact with third
parties.


Recommendation 28:

The Office of Compliance Inspections and Examinations examination staff should
be required to verify a test sample of trading or balance data with counterparties
and other independent third parties such as Financial Industry Regulatory
Authority, Depository Trust Company, or National Securities Clearing Corporation
whenever there are specific allegations of fraud involved in an examination.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 48
                                                                                  Appendix III


Recommendation 30:

The Office of Compliance Inspections and Examinations staff should be given
direct access to certain databases maintained by self-regulatory organizations or
other similar agencies in order to allow examiners to access necessary data for
verification or analysis of registrant data. Such databases should include
exchange trading execution data, Depository Trust Company / National
Securities Clearing Corporation data, the Financial Industry Regulatory Authority
(“FINRA”) Order Audit Trail System and the FINRA Central Registration
Depository.

Recommendation 31:

When an examination team is pulled off the examination for a project of
higher priority, upon completion of that project, the examination team should
return to their examination and bring the examination to a conclusion.

Recommendation 32:

One person in The Office of Compliance Inspections and Examinations
(“OCIE”) should be responsible for tracking the progress of all cause
examinations, and the tracking should include the number of cause
examinations opened, the number on-going and the number closed for each
month. Such data should be reported at least quarterly to the OCIE Director
and to the Securities and Exchange Commission (“SEC”) Chairman. Any
cause examinations open for more than 180 days should be reported to the
OCIE Director and the SEC Chairman with an explanation as to why the
examination requires more time.

Recommendation 33:

The Office of Compliance Inspections and Examinations’ policies and
procedures should clearly indicate that at the conclusion of each
examination, the examination team must prepare a closing report (“Closing
Memorandum”) that begins with the scope discussion from the Planning
Memorandum, as modified by new issues that arise during the course of the
examination. For each and every issue discussed in the scoping discussion
in the Planning Memorandum, the Closing Memorandum should provide
findings relevant to each issue and state the team’s conclusions. All
members of the examination team should sign the Closing Memorandum.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 49
                                                                                  Appendix III


Recommendation 34:

Examination staff should not leave open any substantive issue without
providing a sufficient basis for such a determination or a plan to pursue that
issue at an appropriate later time. In the event that issues are unresolved or
cannot be pursued further, examination staff should formerly refer those
issues to the appropriate Securities and Exchange Commission staff that
may further investigate and resolve such issues.

Recommendation 35:

The Office of Compliance Inspections and Examinations (“OCIE”) training
should include instruction on personal liability, if any, assumed on the part of
examiners for their actions in the course of performing their duties for OCIE.

Recommendation 36:

Office of Compliance Inspections and Examinations (“OCIE”) management
should make clear that it will support OCIE examiners in their pursuit of
evidence in the course of an examination, even if pursuing that evidence
requires contacting customers or clients of the target of that examination.

Recommendation 37:

When an auditor’s independence is questioned in a tip or complaint, the Office of
Compliance Inspections and Examinations should report the information, if
deemed credible, to the appropriate state board of accountancy and to the Public
Company Accounting Oversight Board, if applicable, in addition to considering a
referral to the Securities and Exchange Commission’s Enforcement Division or
other government agency.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 50
                                                                                  Appendix IV


                          Management Comments




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 51
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 52
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 53
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 54
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 55
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 56
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 57
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 58
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 59
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 60
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 61
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 62
                                                                                  Appendix IV




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 63
                                                                                Appendix V


      OIG Response to Management’s Comments

The Office of Inspector General (“OIG”) is pleased that the Office of Compliance
Inspections and Examinations (“OCIE”) concurred with all 37 recommendations
in this report. We believe that these recommendations are crucial to ensuring
that OCIE is able to conduct thorough and effective examinations in the future.
As the OIG Report entitled “Investigation of Failure of the SEC to Uncover
Bernard Madoff’s Ponzi Scheme” dated August 31, 2009 detailed, OCIE received
substantive complaints that raised significant red flags concerning Bernard L.
Madoff’s (“Madoff”) hedge fund operations and should have led to questions
about whether Madoff was actually engaged in trading. Moreover, the
examinations that OCIE conducted of Madoff based upon these detailed and
credible complaints were poorly planned and executed and were concluded while
numerous open and unresolved questions remained.

We believe that the immediate implementation of these recommendations should
be OCIE’s top priority. We are encouraged that OCIE is acknowledging that
significant changes are necessary in its operations and that it intends to
implement all of our recommendations. We have some concerns that OCIE’s
responses to a few of the recommendations are vague or contain
conditions, including some which are outside of OCIE’s control such as
resources or policy issues.

The strength of our capital markets relies on investor confidence, which in turn
depends on vigorous regulatory oversight. The SEC oversees inspections and
examinations of the key participants in the securities world, including securities
exchanges, brokers, and investment advisers. Investors will only be confident in
entrusting their savings with these entities when they have confidence that the
SEC’s oversight is vigorous and competent. As the OIG’s Report of Investigation
made clear, investors relied on SEC examinations in making investment
decisions. Specifically, investors who were uncertain about whether to invest
with Madoff were reassured by the fact that the SEC had conducted
examinations of Madoff’s firm and not detected fraud. Moreover, Madoff himself
cited these examinations as evidence that he was not engaged in fraud. Thus, it
is critical that OCIE engage in competent and thorough examinations, which, in
our view, can be accomplished only by quickly implementing in full the
recommendations in this report.

We believe that these recommendations would simply ensure a basic level of
competence in OCIE examinations and can be fully implemented in short order.
While we understand that OCIE believes that two of the 37 recommendations
may require additional resources, we expect OCIE to immediately implement a
substantial portion of the two recommendations and seek additional resources to
assist in full compliance.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC
Report No. 468
                                              Page 64
                                                                                   Appendix V

The OIG plans to follow-up to ensure that all 37 recommendations are
implemented in full and report back to the Congress on the status of these
efforts. We also plan to conduct a follow-up audit to determine if the changes to
OCIE’s operations are having the desired and appropriate effect.




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 65
                                                                                  Appendix VI


              A Detailed Trading Volume Analysis
The following is a more detailed description of the analysis performed by the FTI
Engagement Team to verify BMIS’ reported equity trading volume based on a
sample of account statements and trade confirmations issued by BMIS to its
feeder fund clients Kingate Management Ltd. (“Kingate”) and Fairfield Sentry,
Ltd. (“Fairfield”) in 2005, in comparison to BMIS’ trade reporting data submitted to
the NASD, as well as its clearing and settlement records provided by NSCC, for
U.S. executions. In addition, the FTI Engagement Team compared BMIS trade
settlement records provided by DTC for January 2005 to overnight securities
holdings shown in BMIS account statements. This exercise is meant to illustrate
what the OCIE examination teams would have discovered had they conducted a
similar analysis, which may also have, depending on its results, prompted the
OCIE examination teams to pursue additional information on European trade
executions.

Feeder Fund Account Statements and Trade Confirmations

The FTI Engagement Team has a sample of trading activity records as captured
in the monthly account statements for two Kingate funds (Kingate Global Fund
and Kingate Euro Fund) produced by BMIS from 2005: Kingate Euro Fund –
January 2005, Kingate Global Fund – February 2005, Kingate Euro Fund –
March 2005 and Kingate Global Fund – March 2005. Additionally, The FTI
Engagement Team also has trade confirmations produced by BMIS to Fairfield
from January 2005. These account statements and trade confirmations were
acquired by the 2005 NERO Cause Examination team from BMIS in 2005.

The monthly account statements provide only basic information, i.e., they only
include daily trading activities throughout the month without detailing either the
investment position or the cash balance of the two fund portfolios at any given
time. The trading activity records in the statements also do not show the
execution time, the execution price or the trade date of each transaction. Only
settlement dates and average daily prices of traded stocks are provided.
Fairfield’s trade confirmations, on the other hand, contain month-end securities
position information in addition to daily trading activities.

For both Kingate funds, the account statements reveal that trading was centered
on selected S&P 100 Index stocks with a daily buy and a daily (offsetting) sell for
each of those stocks so that by the end of a trading day, all equity positions were
closed out. For example, on March 10, 2005, BMIS executed buy and sell
transactions for a total of 44 stocks selected from the S&P 100 Index list for each
of the two Kingate funds (88 stock positions in total). For each stock, the monthly
account statements show that BMIS first established either a long or a short


Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 66
                                                                                  Appendix VI

position on a given trading day, and then closed out the entire position by the end
of the trading day so that no equity position was carried overnight.

Equity Trading – FINRA/NASD Database Comparison

The FTI Engagement Team understood that the 2004 OCIE Cause Examination
had prepared a data request letter to the NASD but the letter was never sent.
Based on that draft letter, during the current OIG investigation process, the FTI
Engagement Team drafted a data request letter to FINRA’s Market Regulation
Department and asked for NASDAQ ACT (Automatic Confirmation of
Transactions) data 29 and OATS (Order Audit Trail System) data for the relevant
time period of March 2005 in relation to BMIS account statements for the two
Kingate funds. In addition, at the FTI Engagement Team’s request, OIG
obtained data from NSCC for the same time period of 2005 and selected
securities as the data provided by FINRA. The FTI Engagement Team has
performed a review of trading volume based on the Kingate records provided by
BMIS from March 2005, as well as actual relevant trading data provided by
FINRA and NSCC for the same time period.

The trading data that would have been provided by NASD during the 2004 OCIE
examination, the NASDAQ ACT data, however, had limitations in that most but
not all trading activity for a given broker-dealer would bear that broker-dealer’s
name. 30 Instead of relying solely on NASD data, a better approach to analyze
volume for U.S. trading would have been to contact NSCC, 31 as data provided
by NSCC is more comprehensive and should include most trades executed by
broker-dealers. Regardless, the differences in reported volume between the
NASDAQ ACT data and the NSCC data are insignificant when compared to the
differences in total volume between those two databases and BMIS’ reported
volume to its feeder funds, as the FTI Engagement Team’s charts below
illustrate. An analysis performed on trading volume using either database would
have likely resulted in uncovering a red flag during the examinations. 32

For the volume analysis, the FTI Engagement Team selected a sample of 14
stocks out of the total 44 stocks professed to be traded by BMIS from March 10
through March 15, 2005 (with the corresponding settlement dates from March 15
through March 18, 2005), a total of four trading days. Of the 14 stocks, 6 were



29
   Also known as the trade audit trail database.
30
   In the case of BMIS, some of the trades conducted through Electronic Communication
Networks (“ECNs”) or other exchanges by BMIS where BMIS was not a member firm were likely
not captured by the NASDAQ ACT system.
31
   FINRA, though, would still be the preferred source for data relating to front running, best
execution and other trading issues.
32
   The results based upon the NSCC data will be presented in the following section.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 67
                                                                                   Appendix VI

listed on NASDAQ, and 8 were listed on the NYSE. 33 The other 30 stocks not
included in this analysis were all listed on the NYSE. The FTI Engagement
Team first calculated the total share volume traded based on Kingate’s account
statements for each of the 14 stocks on each of the four trading days. The FTI
Engagement Team then performed the same analysis using NASDAQ ACT and
OATS data to sum up the total volume reported by BMIS for each stock on each
trading day. 34

BMIS reported trades to the NASDAQ ACT system for both NASDAQ-listed and
NYSE-listed issues. BMIS was a member firm of FINRA/NASD and NASDAQ;
however, it was not a member firm of the NYSE. As a result, BMIS would trade
NYSE-listed issues as a NASDAQ market maker and report trades to NASDAQ
ACT, instead of to Securities Information Automation Corporation (“SIAC”), which
handled NYSE member firms’ reported trades. 35 In contrast, the NASDAQ’s
OATS system is only required for NASDAQ-listed issues. Therefore, using
OATS, the FTI Engagement Team could only perform the volume analysis for the
six NASDAQ-listed stocks included in the sample account statements as part of
the S&P 100 Index stocks. OATS is designed so that every member firm of
FINRA/NASDAQ would report their customer orders’ final status, which includes
execution, cancellation, replacement, expiration or being routed to another
member firm for execution. 36

33
   The FTI Engagement Team first selected all six stocks listed on NASDAQ, then randomly
selected another 8 stocks from a pool of 38 NYSE-listed stocks.
34
   For NASDAQ-listed stocks, all execution volume in OATS should also be reflected in ACT,
either as tape-reported volume, or in the case of odd-lot trades (less than 100 shares), as
clearing and settlement volume. Therefore, OATS is serving as a second check on the total
reported volume to FINRA/NASD by BMIS for the six NASDAQ-listed stocks.
35
   Any BMIS trades that were “laid off” to NYSE member brokers and executed through the NYSE
trading system were not captured by the ACT data, though they would have been captured by the
NSCC database. However, the layoff volume is part of a market maker’s proprietary volume;
therefore, the layoff volume should not have explained the large discrepancy in volume between
customers’ account statements and ACT, as volume shown in the account statements was all
agency-based. The layoff volume is also relatively small when compared to the overall volume.
For example, if BMIS, as a market maker, executes a 700-share customer buy order and then
later a 1,000-share customer sell order, the net imbalance would only be 300 shares long.
Typically, a market maker like BMIS would attempt to sell off the 300-share position at the end of
the trading day without having to carry the open position overnight. For a NASDAQ-listed issue,
BMIS would have sold the 300 shares to other market makers. On the other hand, for a NYSE-
listed issue, while it is still possible that BMIS could have sold the position to another NASDAQ
market maker, due to the fact that the NYSE floor had most of the liquidity, it is more likely that
BMIS would have liquidated the position using a NYSE order-routing system via a “sponsored”
NYSE member firm (as a non-member firm of the NYSE, in order to access the NYSE floor, BMIS
would have to route the order flow through a NYSE member firm).
36
   Member firms’ principal volume is not reportable to OATS, as OATS only requires the reporting
of member firms’ customer order flow information. However, if an order is routed from one
member firm’s principal account to another member firm for execution, then both firms are
required to report that order and its status to OATS, as that order is no longer considered
“proprietary” once routed.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 68
                                                                                  Appendix VI



The following table summarizes the results based on the reported volume to
NASDAQ ACT and OATS system as well as the recorded volume in Kingate’s
account statements. 37
Table 1: Selected Stocks from Kingate’s Account Statements,
       March 10 – March 15, 2005




The FTI Engagement Team’s analysis shows that, for that one feeder fund alone
(Kingate), purported trading volume in selected securities shown on BMIS
statements significantly exceeds actual trading volume by BMIS in those
securities, according to NASDAQ ACT data (as well as OATS data) provided by
FINRA. 38 In fact, Kingate’s volume surpassed the ACT and OATS volume for
every single stock on every single trading day which the FTI Engagement Team
37
   For the analysis of the OATS data, in addition to customer order execution volume reported by
BMIS, the FTI Engagement Team also analyzed all BMIS customer orders routed to ECNs for
execution (e.g., Instinet, BRUT, B*Trade and TRAC, etc.). While ECNs are registered member
firms of FINRA/NASD, in effect, ECNs are simply computerized trading systems that facilitate
trading by ECNs’ own customers, which include market makers, order-entry brokers, institutional
traders, day traders and other professional traders. Nevertheless, once an order is routed to an
ECN from BMIS, instead of BMIS, the ECN assumes the responsibility to report the order status
to OATS as a member firm of FINRA. For our purpose, however, the executed trade should still
be credited to BMIS since it involves a customer order from BMIS.
38
   There are some volume discrepancies between ACT and OATS databases, mainly due to the
differences in reporting requirements by FINRA and NASDAQ. However, the differences in
volume are trivial when compared to the differences in volume between those two databases and
Kingate’s account statements.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 69
                                                                                  Appendix VI

has investigated, by a factor ranging from two to as much as 12.39 In contrast,
under normal circumstances, account statement volume would be expected to be
lower than the reported volume to NASDAQ since the reported volume should
also include the BMIS market making volume that was in addition to Madoff’s
purported trading on behalf of his discretionary accounts. 40 Moreover, Madoff
eventually claimed to have executed trades for “closer to 15” feeder funds;
therefore, the discrepancies of volume would have been even more significant
had other feeder funds’ purported volume been factored into this analysis. 41 The
FTI Engagement Team concluded that had the examiners done a similar
analysis, the disparity in US trading volume would have been uncovered during
their examinations; the only other operating theory at the time to explain that
disparity was possible additional trading on the London Stock Exchange and
possibly other European exchanges (see Finding 8). With this analysis, then,
and with knowledge that the European market for U.S. equities was limited, the
examiners would have had a solid indicator to pursue information from European
regulators and, in turn, investigate other issues such as custody and existence of
client securities. 42

Equity Trading – NSCC Database Comparison

The FTI Engagement Team also compared the same trading volume as recorded
in Kingate’s account statements to the volume cleared and settled by NSCC on
behalf of Madoff during the same period in March 2005.




39
   For example, on March 14, 2005, Kingate’s two fund statements show a total buy and sell
trading volume of 1,643,600 shares for Oracle Corporation (“ORCL”), while the reported volume
submitted to ACT by BMIS was only about 136,850 shares. Kingate’s recorded volume is 12
times as large as the NASDAQ reported volume.
40
   BMIS was a market maker for the securities listed above, executing trades for other brokers
that were separate from any investment advisory accounts; one would expect that some, if not
most, of the volume shown in ACT would be attributable to the market-making operations.
41
   Data relating to trades reported by BMIS to NASDAQ ACT or NSCC would be available only to
the SEC, FINRA, NASDAQ and DTCC. Absent any specific legal authority, neither the BMIS
feeder funds, nor their advisors and auditors, would have had access to the trade execution data
needed to prepare an analysis similar to that which the FTI Engagement Team performed for this
report.
42
   Examiners would also have a strong case for following up with European regulators to obtain
data on BMIS foreign trades.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 70
                                                                                  Appendix VI


Table 2: Kingate’s Volume Compared to BMIS’ Officially Cleared
      and Settled Volume, March 10 – March 15, 2005




Similar to the results above, purported trading volume for the Kingate funds
significantly exceeded actual trading volume by BMIS in those securities, as
cleared by NSCC. Likewise, had the FTI Engagement Team included other
feeder funds’ purported trading volume, as well as deducted Madoff’s actual
market making volume from the NSCC cleared volume, the divergence of volume
would be even more obvious and substantial.

Equity Positions – DTC Database Comparison

Finally, the FTI Engagement Team also compared BMIS’ securities position
holdings as reported by DTC to the overnight equity position of Fairfield, based
on a sample of trade confirmations issued by BMIS to Fairfield in January 2005.
Based on the FTI Engagement Team’s research, BMIS did not hold billions of
dollars of S&P 100 equities for Fairfield, as listed on the account statements. For
example, as the chart below illustrates, on January 26, 2005, DTC records
showed that the BMIS account held a total of 90,200 shares of the above-

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 71
                                                                                    Appendix VI

mentioned 14 S&P 100 equities in the DTC account. 43 On the contrary, the trade
confirmation statements produced by BMIS for Fairfield show total holdings of
35,682,300 shares for those same 14 stocks as of January 26, 2005, which
exceeded the shares recorded in DTC by a factor of almost 400. 44 This finding
would likely have led SEC examiners to make further inquiries into positions held
with any foreign custodians, such as Barclays. 45

Table 3: Feeder Fund’s Equity Positions Compared to BMIS’ DTC
   Positions, Selected S&P 100 Stocks – January 26, 2005




43
   Most of the shares held by BMIS at DTC were likely related to BMIS market-making positions
only. The FTI Engagement Team concluded that the DTC records would have included
additional shares held by BMIS for its investors had Madoff conducted genuine trades in U.S.
markets for those investors because BMIS was acting as their custodian.
44
   The trade confirmations only provide the asset positions for Fairfield as of the month end date
of January 31, 2005. The FTI Engagement Team netted out the trading activities between
January 26 and January 31 to arrive at the asset positions as of January 26, 2005.
45
   OCIE’s IA/IC intranet currently includes an examination module titled “Account Statements
Sent By Third Party” dated July 2008, which addresses issues associated with reconciling
account statements sent by investment advisers with statements sent to customers from outside
custodians, although it notes “If client does not receive an account statement from an
independent third party, then they would not be able to detect problems or errors or fraud in their
account.”

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC    September 29, 2009
Report No. 468
                                              Page 72
                                                                                  Appendix VI



After Hour Trading

Both the FINRA/NASD data and DTC/NSCC data would omit any trading in
European markets. During the 2005 NERO Cause Examination, according the
OIG’s Report of Investigation, Madoff told the SEC onsite examiners that BMIS
executed trades for institutional clients in Europe before the 9:30 opening of the
U.S. equity markets. In order to verify BMIS’ trades on European markets, the
OCIE examiners would likely have had to make follow-up requests to European
entities and perform additional analyses to draw definitive conclusions as to the
existence of fictitious trades or a Ponzi scheme.

Nevertheless, ordinarily only a small percentage of volume for S&P 100 stocks
was traded during after hours in Europe before the U.S. markets were open.
After-hour markets for US stocks traded in both U.S. and Europe were viewed as
illiquid. 46 Additionally, even though a regular trading day on NASDAQ starts at
9:30 am in the morning and ends at 4:00 pm in the afternoon, a market maker,
such as BMIS, could continue to trade after hours on NASDAQ using NASDAQ
trading systems or other proprietary trading systems and report trades to the
ACT database. In fact, the NASDAQ ACT system accepted trade reporting from
8:00 am in the morning until 6:30 pm in the afternoon during the early 2000s.
Furthermore, even with the time differential, the normal trading session for the
London Stock Exchange (“LSE”), for example, only ran from 4:00 am EST
through 11:30 am EST, which only added an extra four hours from 4:00 am
through 8:00 am before NASDAQ ACT and other proprietary trading systems
opened. It was not likely that BMIS would transact several hundred thousand
shares of volume for each individual stock on each day, as it purported to do for
its investment adviser accounts, between 4:00 am and 8:00 am on a European
exchange when the market for this time period is viewed by the industry as
illiquid. 47




46
   See “After-Hours Trading: Understanding the Risks”
http://www.sec.gov/investor/pubs/afterhours.htm.
47
   The same conclusion applies to trading of OEX options during after hours.

Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC   September 29, 2009
Report No. 468
                                              Page 73
                                                                                     Appendix VI



Table 4: Kingate Funds Advised by Madoff – Selected Stocks,
     March 10 – March 15, 2005




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC    September 29, 2009
Report No. 468
                                                                       Page 74
                                                                                     Appendix VI




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC    September 29, 2009
Report No. 468
                                                                       Page 75
                                                                                     Appendix VI




Table 5: Madoff’s Trading Volume from OATS, Six Stocks: Microsoft,
     Intel, Dell, Oracle, Amgen and Cisco, March 10 – March 15, 2005




Review and Analysis of OCIE Examinations of Madoff Investment Securities, LLC    September 29, 2009
Report No. 468
                                                                       Page 76
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
